<html>
<title> - CARING FOR THE VULNERABLE: THE STATE OF SOCIAL WORK IN AMERICA</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
     CARING FOR THE VULNERABLE: THE STATE OF SOCIAL WORK IN AMERICA 

=======================================================================

                                HEARING

                               before the

                        SUBCOMMITTEE ON HEALTHY
                        FAMILIES AND COMMUNITIES

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

             HEARING HELD IN WASHINGTON, DC, JULY 29, 2008

                               __________

                           Serial No. 110-105

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

44-395 PDF                       WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 























                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Senior Republican Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            [Vacancy]
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

            SUBCOMMITTEE ON HEALTHY FAMILIES AND COMMUNITIES

                 CAROLYN McCARTHY, New York, Chairwoman

Yvette D. Clarke, New York           Todd Russell Platts, Pennsylvania,
Carol Shea-Porter, New Hampshire       Ranking Minority Member
Dennis J. Kucinich, Ohio             Howard P. ``Buck'' McKeon, 
Raul M. Grijalva, Arizona                California
John P. Sarbanes, Maryland           Kenny Marchant, Texas
Jason Altmire, Pennsylvania          Luis G. Fortuno, Puerto Rico
John A. Yarmuth, Kentucky            David Davis, Tennessee
                                     [Vacancy]
















                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on July 29, 2008....................................     1
Statement of Members:
    Altmire, Hon. Jason, a Representative in Congress from the 
      State of Pennsylvania, prepared statement of...............    42
    Davis, Hon. David, a Representative in Congress from the 
      State of Tennessee.........................................     3
        Prepared statement of....................................     3
    McCarthy, Hon. Carolyn, Chairwoman, Subcommittee on Healthy 
      Families and Communities, Committee on Education and Labor.     1
        Prepared statement of....................................     2
        Additional submissions for the record:
            Letter from the National Association of Social 
              Workers, dated August 14, 2008.....................    42
            ``Cost Outcomes and Social Work Practice,'' Sage 
              Publications, 2006.................................    44
            ``Relationships Between Social Work Involvement and 
              Hospice Outcomes: Results of the National Hospice 
              Social Work Survey,'' Social Work, July 2004.......    49
            ``Cost-Effectiveness of Case Management in Substance 
              Abuse Treatment,'' Sage Publications, 2006.........    57
            ``The Impact of a Caregiver Health Education Program 
              on Health Care Costs,'' Sage Publications, 2006....    68
    Shea-Porter, Hon. Carole, a Representative in Congress from 
      the State of New Hampshire, submissions for the record:
        Letter from the Clinical Social Work Association, dated 
          July 28, 2008..........................................    79
        ``The NASW Code of Ethics and State Licensing Laws''.....    81
        NASW slides: ``Social Workers are the Largest Group of 
          Clinically Trained Mental Health Providers''...........    85

Statement of Witnesses:
    Bailey, Gary, MSW, ACSW, associate professor, School of 
      Social Work, clinical associate professor, School of Health 
      Science, Simmons College...................................     6
        Prepared statement of....................................     7
    Bergeron, L. Rene, Ph.D., associate professor of social work, 
      University of New Hampshire................................    17
        Prepared statement of....................................    19
    Bird, Michael, MSW, MPH, public health consultant............    14
        Prepared statement of....................................    15
    Fuller, Adina, MSW, licensed graduate social worker, 
      Washington, DC, Department of Youth Rehabilitation Services    24
        Prepared statement of....................................    25
    Mama, Robin S., Ph.D., professor and dean, School of Social 
      Work, Monmouth University..................................    10
        Prepared statement of....................................    11
    Wells, Rev. Sarah C., BSW, CSWM, Good Samaritan Ministries...    21
        Prepared statement of....................................    22


                       CARING FOR THE VULNERABLE:
                  THE STATE OF SOCIAL WORK IN AMERICA

                              ----------                              


                         Tuesday, July 29, 2008

                     U.S. House of Representatives

            Subcommittee on Healthy Families and Communities

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 3:00 p.m., in 
room 2175, Rayburn House Office Building, Hon. Carolyn McCarthy 
[chairwoman of the subcommittee] presiding.
    Present: Representatives McCarthy, Shea-Porter, Yarmuth, 
and Davis of Tennessee.
    Staff Present: Tylease Alli, Hearing Clerk; Denise Forte, 
Director of Education Policy; David Hartzler, Systems 
Administrator; Jessica Kahanek, Press/Outreach Assistant; 
Deborah Koolbeck, Policy Advisor, Subcommittee on Healthy 
Families and Communities; Susan Ross, Director of Education and 
Human Services Policy; Margaret Young, Staff Assistant, 
Education; Stephanie Arras, Minority Legislative Assistant; 
James Bergeron, Minority Deputy Director of Education and Human 
Services Policy; Cameron Coursen, Minority Assistant 
Communications Director; Kirsten Duncan, Minority Professional 
Staff Member; and Linda Stevens, Minority Chief Clerk/Assistant 
to the General Counsel.
    Chairwoman McCarthy. A quorum is present, the hearing of 
the subcommittee will come to order. Pursuant to committee rule 
12(a) any member may submit an opening statement in writing 
which will be made part of the permanent record.
    Before we begin I would like everyone to take a moment to 
ensure that your cell phones and BlackBerrys are on silent. We 
like it when everybody looks in their pocketbooks and purses to 
make sure it doesn't go off.
    I now recognize myself, followed by the Congressman Davis 
from Tennessee, for an opening statement. I want to thank each 
and every one of you for being here today for this 
informational hearing on the state of social work in America.
    Social work is a profession involving the education, 
treatment, care, support, and often nurturing of vulnerable 
individuals and families, with the objective of assisting or 
guiding them on how to improve their lives.
    The average person's image of a social worker is someone 
who is very passionate about what they do in the face of 
challenging, difficult, mean, horrific situations, and whose 
work results in life-changing experiences, all while being 
underpaid and under appreciated.
    I am not sure if this is exactly the case for each social 
worker in America, and that is why we are having this hearing 
today, to educate the subcommittee on the work of social work.
    The year 2008 to 2009 edition of the Bureau of Labor 
Statistics Occupational Outlook states that social work 
employment is expected to grow faster than average and that a 
Master's Degree in social work or related field has become 
standard for many positions. Further, it is expected that 
opportunities for employment in the social work profession 
should be good in rural areas, competitive in urban areas.
    In the year 2006, there were 595,000 social workers, and 
that number is projected to reach 727,000 by the year 2016. 
Each year social work is expected to experience a growth of 
projected employment, with some areas expecting a larger 
increase than others. For example, it is expected that as the 
Baby Boom generation ages that there will be a greater demand 
for health and related services. Clearly if you are a young 
person looking for job opportunities in the future, social work 
is a field to consider.
    However, that being said, most people don't know what 
social work is and what social workers do on a given day. 
Social workers engage in many fields and in many locations, 
including working with children, families, the elderly, those 
who are incarcerated or at risk of incarceration, those facing 
serious or life-threatening illness, those with mental health 
or substance abuse challenges, and with public health 
organizations and agencies.
    Social workers also engage in public policy and government. 
We have six social workers in Congress, including my colleague, 
Congressman Shea-Porter, who is on the subcommittee here today. 
Welcome.
    I employ a licensed social worker on my staff in my 
district. It was actually one of the first things I did because 
I had a feeling that with the work that I was getting into it 
was going to need a lot of hand holding and somebody that knew 
the way to get around, giving the services to my constituents. 
I think that somehow nearly all of us are connected to or have 
interacted with a social worker in some capacity.
    Today we will learn about the various fields of social 
work, an overview of the profession, and perspectives on the 
state of the profession through the lens of educated, research 
diversity, and on-the-ground experience.
    Again, I want to thank each of you for attending the 
hearing, and I look forward to your testimony.
    Now I would like to introduce my colleague, Mr. Davis from 
Tennessee, for his opening statement.
    [The statement of Mrs. McCarthy follows:]

 Prepared Statement of Hon. Carolyn McCarthy, Chairwoman, Subcommittee 
                  on Healthy Families and Communities

    I want to thank each of you for being here today for this 
informational hearing on the state of social work on America.
    Social work is a profession involving the education, treatment, 
care, support, and often nurturing of vulnerable individuals and 
families with the objective of assisting or guiding them on how to 
improve their lives.
    The average person's image of a social worker is someone who is 
very passionate about what they do in the face of challenging, 
difficult, and even horrific situations and whose work results in life-
changing experiences, all while being underpaid and underappreciated. I 
am not sure if this is exactly the case for each social worker in 
America, and that is why we are having this hearing today--to educate 
the Subcommittee on the state of social work.
    The 2008-2009 edition of the Bureau of Labor Statistics 
Occupational Outlook states that social work employment is expected to 
grow faster than average and that a master's degree in social work or a 
related field has become standard for many positions.
    Furthermore, it is expected that opportunities for employment in 
the social work profession should be good in rural areas and 
competitive in urban areas. In 2006 there were five hundred ninety-five 
thousand social workers and that number is projected to reach seven 
hundred twenty seven thousand by the year 2016.
    Each area of social work is expected to experience a growth in 
projected employment, with some areas expecting a larger increase than 
others. For example, it is expected that as the Baby Boom generation 
ages that there will be a greater demand for health and related social 
services. Clearly, if you are a young person looking at job 
opportunities in the future, social work is a field to consider. 
However, that being said, most people don't know what social work is 
and what social workers do in a given day.
    Social workers engage in many fields and in many locations, 
including working with children, families, the elderly, those who are 
incarcerated or at risk of incarceration, those facing serious or life-
threatening illness, those with mental health or substance abuse 
challenges, and with public health organizations and agencies. Social 
workers also engage in public policy and government.
    We have six social workers in Congress, including my colleague 
Congresswoman Shea-Porter who is on this Subcommittee and here today. I 
employ a licensed social worker on my staff in my district. I think 
that somehow nearly all of us are connected to or have interacted with 
a social worker in some capacity.
    Today we will learn about the various fields of social work, an 
overview of the profession, and perspectives on the state of the 
profession through the lenses of education, research, diversity, and 
on-the-ground experience.
    Again, I want to thank each of you for attending the hearing and I 
look forward to your testimony.
                                 ______
                                 
    Mr. Davis. Good afternoon. Thank you, Chairman McCarthy, 
for holding this important hearing. I would like to thank each 
of our witnesses who have taken the time to provide this 
subcommittee with their testimony. I would like to extend a 
special welcome to my fellow Tennesseean, Sarah Wells, who I 
will introduce later.
    The importance of social workers cannot be overstated. 
These professionals serve every age range, race, ethnic group 
and social background, and they do so selflessly. Social 
workers advocate for people who cannot do it themselves and 
help them navigate the sometimes confusing array of public 
services available to them. Whether it is ensuring that an 
abused child is placed in a safe foster home or helping a 
family cope with a terminal illness, social workers improve the 
lives of individuals and families and their communities on a 
daily basis.
    Chairwoman McCarthy, I look forward to working with you on 
this important issue. Again, I thank each of you for being here 
today and I am eager to hear your testimony. With that, I yield 
back.
    [The statement of Mr. Davis of Tennessee follows:]

 Prepared Statement of Hon. David Davis, a Representative in Congress 
                      From the State of Tennessee

    Good afternoon. Thank you, Chairwoman McCarthy, for holding this 
important hearing. I'd like to thank each of our witnesses who have 
taken the time to provide this Subcommittee with their testimony. I'd 
like to extend a special welcome to fellow Tennessean, Sarah Wells, who 
I will introduce later.
    The importance of social workers cannot be overstated. These 
professionals serve every age range, race, ethnic group and social 
background, and they do so selflessly. Social workers advocate for 
people who cannot do so for themselves and help them navigate the 
sometimes confusing array of public services available to them. Whether 
it is ensuring that an abused child is placed in a safe foster home or 
helping a family to cope with a terminal illness, social workers 
improve the lives of individuals and families in their communities on a 
daily basis.
    Chairwoman McCarthy, I look forward to working with you on this 
important issue. Again, I thank each of you for being here today and am 
eager to hear your testimony. I yield back.
                                 ______
                                 
    Chairwoman McCarthy. Thank you, Mr. Davis. Without 
objection, all members will have 14 days to submit additional 
materials or questions for the hearing record.
    Let me explain our lighting system. In front of you, you 
will see three boxes there, green, yellow and red. Red 
basically means we would like to you stop your testimony. If 
you are in the middle of a sentence, believe me, we will let 
you go on. But just try and keep your testimony into that, and 
that goes for the members also.
    So with that, if we have additional time, we will be asking 
additional questions.
    Today we will hear from a panel of witnesses. Your 
testimonies will proceed in the order that I introduce you. I 
would like to introduce our first witness, Mr. Gary Bailey. He 
is an Associate Professor of the Simmons College for Social 
Work in Massachusetts and Assistant Professor at the Boston 
University School of Public Health. He is immediately past 
President of the National Association of Social Workers and 
serves as Chair of the International Federation of Social 
Workers Commission on Policy, Advocacy and Representation. In 
1998, he received the honor of Social Worker of the Year and 
has received numerous awards since.
    Today, Mr. Bailey will give us an overview of the social 
work profession, and we will look forward to learning what 
social work is and the success and challenges of the profession 
from him.
    Our next witness, Dr. Mama, comes to us from New Jersey. I 
know Congressman Rush Holt wanted to be here, but unfortunately 
he got tied up back in his district. He wanted to introduce 
you. Dr. Mama is the Dean of School of Social Work at Monmouth 
University. She also serves as the representative of the 
International Federation of Social Workers at the United 
Nations in New York City.
    Dr. Mama will speak to us about undergraduate and graduate 
education as well licensure requirements for the social work 
profession.
    Mr. Michael Bird comes to us from New Mexico. Welcome. Mr. 
Bird has over 25 years of public health experience in the areas 
of medical social work, substance abuse prevention, health 
promotion, and disease prevention, HIV/AIDS prevention, 
behavior health and health care administration. Of his many 
accomplishments from 2000 to 2001, Mr. Bird was the first 
American Indian and the first social worker to serve as 
President of the American Public Health Association. He has 
also been involved in numerous health disparity projects and 
programs on a local, tribal, national, and international level.
    Most recently, he was named to serve on the Robert Wood 
Johnson Foundation, Urban Indian Health Commission. Today Mr. 
Bird will discuss the impact and necessity of diversity in the 
social work profession, in which he is a living example. 
Welcome again.
    Our next witness, Dr. Bergeron----
    Ms. Bergeron. Bergeron.
    Chairwoman McCarthy [continuing]. Bergeron, will be 
introduced by our subcommittee social worker, Congresswoman 
Shea-Porter.
    Ms. Shea-Porter. Thank you. It is my privilege today to 
introduce a constituent of mine. Dr. Rene Bergeron's impressive 
resume includes over 30 years of experience and numerous 
publications that focus on various topics from elder abuse and 
neglect, to family poverty, to domestic violence, just to name 
a few. She is a monthly contributor to the New Hampshire Senior 
Times and on the Board of the Advising Editors for the Journal 
of Elder Abuse and Neglect.
    Dr. Bergeron serves as an Associate Professor in the Social 
Work Department at my alma mater, University of New Hampshire. 
We are both so proud of it. And as if all that is not enough to 
keep anyone busy, she currently serves as the President of the 
New Hampshire chapter of National Association of Social Work.
    As a social worker and administrator myself, I would like 
to thank you, Dr. Bergeron, for your work in our field and for 
taking the time out today. You have a very busy schedule, as we 
know, and you are testifying and we appreciate it very much, 
and I look forward to your testimony.
    Thank you, Madam Chairwoman.
    Chairwoman McCarthy. You are quite welcome.
    Next I turn to my colleague from Tennessee, Mr. David 
Davis, to introduce the Reverend Sarah Wells.
    Mr. Davis. Thank you, Chairwoman McCarthy. I appreciate the 
opportunity to introduce our next witness. Reverend Sarah Wells 
has been an Executive Director of the Good Samaritan Ministries 
in Johnson City, Tennessee since 1998. Sarah graduated from 
East Tennessee State University from the Department of Social 
Work as a certified social work manager. Sarah served east 
Tennessee's first homeless education liaison for the upper east 
Tennessee region and worked to expand this program to what it 
is today throughout the State of Tennessee. Today Sarah strives 
to work towards learning new ways to reach out to her 
community.
    Sarah is married to Dr. Vernon Wells and is the mother of 
four children and grandmother to 14.
    Sarah, welcome to Washington.
    Chairwoman McCarthy. Our next witness is Ms. Fuller. Ms. 
Fuller is a licensed social worker at the Department of Youth 
Rehabilitation Services in Washington, D.C.'s juvenile justice 
system. Her daily work involves a caseload of 27 young people 
who have been committed to the DYRS for acts of delinquency. 
Today she will share with us a view of her day-to-day work to 
help us gain an understanding of what social work is on a daily 
basis in the JJ system here in Washington. I want to thank you 
for being here today and joining you us.
    I have already explained to you the lighting system. I am 
fairly lenient on that, but if you go way over you will 
probably hear me tap a little bit first, and then hopefully you 
will finish up your testimony. We are now going to hear from 
our first witness, Mr. Bailey.

   STATEMENT OF GARY BAILEY, MSW, ACSW, ASSOCIATE PROFESSOR, 
SCHOOL OF SOCIAL WORK, CLINICAL ASSOCIATE PROFESSOR, SCHOOL OF 
                HEALTH SCIENCE, SIMMONS COLLEGE

    Mr. Bailey. Thank you, Madam Chair and Mr. Davis. It is an 
honor to have been invited here today to address you and to 
talk about the state of social work in the United States.
    My name is Gary Bailey, and I am proudly an Associate 
Professor of Social Work at Simmons College School of Social 
Work in Boston, Massachusetts. Simmons was established in 1904 
and was the Nation's first institute of higher learning to 
offer training for clinical social workers, and was begun in 
response to the need to professionalize charity.
    I feel very fortunate to have been a professional social 
worker for the past 30 years, having worked in direct services 
and administrative capacities in the field of child welfare, 
gerontology, social work education, and having volunteered in 
the area of HIV/AIDS early on in the epidemic at the AIDS 
Action Committee in Boston, one of the Nation's foremost AIDS 
service organizations.
    As I speak before you today, the Nation faces many complex 
and converging challenges, from our military engagement abroad 
to rising food and commodity prices and untenable mortgages at 
home. While each of the challenges individually demand the 
comprehensive engagement of the Nation's social workers, these 
trends taken together suggest a significantly increased need 
for professional social work services within vulnerable 
communities, both locally, nationally and internationally.
    While it is clear that the Nation's social work community 
will be strained to meet this increased demand, a broader work 
community and an assessment of the true scope of these demands, 
along with the comprehensive plan to provide for adequate 
service to all in need is of vital importance.
    I have had the honor of serving as President of the 
National Association of Social Workers from 2003 to 2005, and 
currently I am the Chairman of the National Social Work Public 
Education Campaign. I join you today to discuss the important 
role that the profession of social work plays in our society.
    Social work is the helping profession. Across the Nation 
the profession of social work and social workers improve and 
enrich the lives of individuals and families and help build 
strong communities. Social workers provide critical services in 
rural, urban and suburban areas, and have long been society's 
safety net for a broad range of issues, including child 
welfare, mental and behavioral health, aging, corrections, 
health, and military and veterans affairs.
    Much of society only encounters a social worker when 
dealing with a problem, such as moving a family member from a 
hospital to a nursing home, and there is limited public 
understanding of the role of social workers. However, we work 
to help individuals, families, and communities across the 
country, and the need for social work services will only grow 
with time.
    As Chair of the Social Work Public Education Campaign, I 
have traveled this country and met numbers of people who have a 
universal awareness of social work as a helping profession. 
Many people lack, however, an accurate knowledge related to the 
education and credentials needed to be a professional social 
worker. They did not appreciate the diversity of the work, they 
were confused by the use of the more general term of 
caseworker, which at times is used interchangeably with that of 
social worker.
    As the Baby Boomers continue to age, they will increasingly 
need social work services, ranging from mental health and 
family counseling to health, education, group programs and case 
management. Social workers, who provide the majority of the 
mental health services in the United States, will work with the 
26 percent of the American population aged 18 and older that 
experience a diagnosable mental disorder. Professional social 
workers will counsel students to prevent high school dropout 
rates, work with formerly incarcerated individuals to ensure 
positive community reentry, and help patients diagnosed with 
serious illnesses such as cancer to make informed decisions 
about their care.
    While the need for social work services will only increase 
with time, we are not equipped to keep pace with this demand, 
and Dr. Mama will go into that in more detail.
    The social work profession has existed for over a century 
and has enriched many lives. Thirty years ago I made a decision 
to become a professional social worker, and I have never 
regretted that decision. While it is clear that the Nation's 
social work community will be strained to meet these increased 
demands, a broader assessment of the true scope of these 
demands, along with a comprehensive plan to provide adequate 
service for all in need, is a vital necessity.
    So today I say to you again, my name is Gary Bailey and I 
am proud to be a professional social worker.
    [The statement of Mr. Bailey follows:]

  Prepared Statement of Gary Bailey, MSW, ACSW, Associate Professor, 
 School of Social Work, Clinical Associate Professor, School of Health 
                        Science, Simmons College

    Chairwoman McCarthy, Ranking member Platts, and honorable members 
of the Subcommittee on Healthy Families and Communities, I would like 
to thank you for inviting me here today to discuss the state of the 
profession of social work. My name is Gary Bailey and I am currently an 
associate professor at Simmons College of Social Work in Boston, 
Massachusetts. Established in 1904, Simmons was the nation's first 
institute of higher learning to offer training for clinical social 
workers. Simmons also was at the forefront of educating students for 
medical social work and managed care.
    I feel fortunate to have been a professional social worker for the 
past 30 years having worked in many capacities including the fields of 
child welfare, gerontology and social work education. I served as 
President of the National Association of Social Workers from 2003 to 
2005 and am the current Chairman of the National Social Work Public 
Education Campaign.
Background
    I join you today to discuss the important role that the profession 
of social work plays in our society. Social work is the helping 
profession. Across the nation the profession of social work and social 
workers improve and enrich lives every single day. Social workers 
provide critical services in rural, urban and suburban areas and have 
long been society's safety net for a broad range of issues including 
child welfare, mental and behavioral health, aging, corrections, health 
and military and veterans' affairs.
    As the baby boomers continue to age, they will increasingly need 
social work services ranging from mental health and family counseling 
to health education, group programs and case management. Social 
workers, who provide the majority of mental health services in the 
United States, will work with the 26 percent of the American population 
aged 18 and older that experience a diagnosable mental disorder. 
Professional social workers will counsel students to prevent high 
dropout rates, work with formerly incarcerated individuals to ensure 
positive community reentry, and help patients diagnosed with serious 
illness to make informed decisions about their care.
    Social work began in the late 19th century when concerns about 
increasing poverty led people to question how to prevent and protect 
people from ``falling through the cracks'' in society. Many credit Jane 
Addams for the emergence of the profession as she created the first 
settlement house in America, Chicago's Hull House in 1889. Settlement 
workers were often women who settled in urban areas to address the 
various challenges facing immigrant communities. The settlements 
provided a vital service, Addams believed, both for the volunteer 
residents, who needed a purpose in life, and for the society at large, 
by building needed bridges between the classes in an increasingly 
stratified and fragmented society (Addams, 1893). Settlement house 
workers, charity organization societies, and child savers worked 
together throughout the end of the century to preserve healthy 
communities and ensure that biopsychosocial needs were being met.
    During the Great Depression, economic, mental, and social needs 
rose dramatically and the social work profession was recognized as 
necessary to solve the seemingly intractable challenges of the times. 
Social workers created programs for the Department of Labor and the 
Department of Health, Education, and Welfare to combat widespread 
hunger and unemployment. The profession was dedicated to restoring hope 
for the American people and continued to see significant growth during 
the Civil Rights Movement and the War on Poverty as many of the 
architects of these important social initiatives were social workers. 
Recent decades have produced competition for financial resources and 
less understanding of the role of the social worker in society; however 
these professionals continue to help individuals, families, and 
communities across the country. The need for social work services will 
only grow with time.
Current Issues
    The profession of social work has grown with and reflected the 
changing needs of our society. As previously mentioned, social workers 
are the largest group of mental health providers in the country. There 
are 192,000 clinical social workers across the United States treating 
adults, adolescents, children, veterans, the incarcerated, the elderly, 
and those diagnosed with diseases such as HIV/AIDS for a variety of 
mental health concerns ranging from emotional disturbances to serious 
debilitating illnesses. Social workers' most frequent specialty 
practice area is mental health whether it be in private practice, a 
mental health clinic , hospital, prison, or long term care facility.
    Social workers not only practice in a variety of settings including 
child welfare and foster care agencies, community action centers, 
hospitals, government offices, mental health centers, homeless 
shelters, and schools but also cater to a diverse clientele. Social 
workers help people and communities overcome some of life's most 
difficult challenges including poverty, discrimination, abuse, 
addiction, physical illness, divorce, loss, unemployment, educational 
problems, disability, and mental illness.
    Professional social workers have advanced educational preparation 
and practice experience. A professional social worker must have a 
bachelor's (BSW), master's (MSW) or doctorate (PhD or DSW) degree in 
social work. A master's degree in social work is the predominant degree 
for licensed social workers (79% for active practitioners) and we pride 
ourselves in being the profession trained to work with people in their 
environment, looking at all dimensions of the individual's life. Social 
workers recognize that most clients face complex situations and often 
have co-occurring needs and work to address all of these needs. For 
instance, a social worker specializing in aging would not only support 
their client's physiological, psychological, and social needs through 
mental health therapy, caregiver and family counseling, and health 
education but will also need to understand chronic illness as many 
elderly clients will be faced with these issues.
    Social workers undergo advanced training in accredited education 
programs and grow their expertise through standards, credentials, and 
state licensing requirements. Social workers have the right education, 
experience, and dedication to help people help themselves whenever and 
wherever they need it. They understand complex support systems and work 
to connect people to the resources they need. Social workers focus on a 
person's strengths and help clients reach their full potential. It is 
this unique blend of training, education, and experience that equips 
professional social workers with the tools necessary to tackle 
society's most pressing problems.
Challenges
    Despite a century of service, the public is still not clear about 
what social workers do. The media often report on the profession only 
when a problem arises in the child welfare system and far too often 
these individuals are not professionally trained social workers as less 
than 35% of child welfare workers actually have any social work 
training. They may be performing in a social work capacity or hold a 
social work title without proper supervision or education. Despite some 
public perception, the vital services that social workers do provide in 
the child welfare system, as well as in numerous other areas, 
contribute to a healthy society.
    There is confusion among the public as there is not one typical 
social worker. Social workers may work in traditional child welfare 
agencies or may hold public office as a member of Congress. They may 
own their own private mental health practice or work in a long term 
care facility. Few are aware that the largest employer of social 
workers in the nation is the Department of Veterans Affairs with over 
5,000 professional social work employees. Uniformed social services 
play a critical role in our military efforts at home and abroad. It 
also often goes unnoticed that professional social workers are first 
responders to disasters such as Hurricane Katrina and the Virginia Tech 
shootings. They provide vital supports to victims and their families 
during times of crisis and for years beyond.
    Professional social workers hold positions in government, 
nonprofit, business and educational settings. Informing the public 
about the breadth and depth of the profession is important as it 
affects the public's access to care, the ability of social workers to 
perform essential duties, and to impact important policy decisions. 
Many of the benefits U.S. citizens take for granted were implemented 
because social workers--working with families and institutions--spoke 
out against abuse and neglect.
    During my tenure as Chair of the Social Work Public Education 
Campaign I have traveled the United States and met numbers of people 
who have a universal awareness of social work as a ``helping'' 
profession but who lack accurate knowledge related to the education and 
credentials needed to be a professional social worker; they did not 
appreciate the diversity of the work; they were confused by the use of 
the more general term of ``case worker'' used interchangeably with that 
of social worker. Generally the public has had a strong respect for the 
difficulty of the job and believes that social workers are overworked 
and are under valued. They also believed that we worked with the 
underserved, handle a variety of problems and generally believe that 
they will never need a social worker.
    The need for social work services will only increase with time, 
however we are not equipped to keep pace with this demand. For example, 
there are currently 30,000 licensed social workers working in the field 
of aging; however the National Institute on Aging projects that 60,000 
to 70,000 social workers will be needed by 2010. If schools of social 
work do not recruit young professionals and if we do not retain 
experienced social workers, the public will suffer from a lack of 
critical services. This is particularly true in the areas of aging and 
child welfare.
    A key component of recruitment and retention of professional social 
workers is their ability to earn comparable salaries. Increases in 
social work salaries have not kept pace with other professions such as 
teaching and nursing. A survey conducted by the John A. Hartford 
Foundation, Inc. found that between 1992 and 1999 the annual rate of 
wage growth for degree-holding social workers was less than one 
percent. In addition, high educational debt is a concern of every 
graduating social work student. According to one study, 68 percent of 
individuals surveyed with a Master's Degree in Social Work (MSW) 
graduated with an average debt of $26,777. Many social workers will 
earn less than that upon graduation. Low salaries and high educational 
debt are making this profession an impossible choice for many.
    These challenges must be overcome in order to ensure that the 
profession grows and thrives in the future and so that clients can 
continue to be served for years to come.
Conclusion
    The social work profession has existed for over a century and has 
enriched many lives. Social work skills are broad and applicable in a 
variety of settings and make this profession unique and important. 
Social workers are educated, experienced, and ethical and provide a 
diverse range of services across the life span.
    Thirty years ago I made a decision to become a professional social 
worker. I was introduced to the field of social work by a woman who was 
teaching a winter intercession course at my alma mater of Tufts 
University. Until that time I was preparing to pursue a career in 
medicine. In her class I was introduced to a field that resonated with 
my desire to be a catalyst in people's lives for change; and to create 
opportunities where previously there had been none.
    I have never regretted that decision and I am delighted to say that 
my name is Gary Bailey and I am a proud professional social worker.
                                 ______
                                 
    Chairwoman McCarthy. Thank you very much, right on the mark 
too.
    Dr. Mama.

 STATEMENT OF ROBIN S. MAMA, PH.D., PROFESSOR AND DEAN, SCHOOL 
              OF SOCIAL WORK, MONMOUTH UNIVERSITY

    Dr. Mama. Thank you, Chairwoman McCarthy and members of the 
committee, for allowing me to speak to you today about social 
work education. My name is Robin Mama, and I am the Dean of the 
School of Social Work at Monmouth University in West Long 
Branch, New Jersey.
    My oral comments will be targeted to undergraduate social 
work education; however, my written testimony provides you with 
some additional information on Master's level education as well 
as social work licensure for practicing social workers.
    There are over 400 Bachelor of Social Work programs in the 
United States. Some BSW programs stand alone, in departments 
that are combined with sociology, anthropology and/or criminal 
justice. Some BSW programs, like ours at Monmouth, are in the 
School of Social Work or a department that also offers a Master 
of Social Work program. And then there are a few who are 
combined with Master of Social Work, Bachelor of Social Work 
and Ph.D. In social work programs.
    All undergraduate social work programs are generalist in 
their focus. Students in BSW programs do not concentrate in any 
area of practice or theoretical focus, as is the case with 
Master's programs. BSW students are taught to work in many 
areas of practice, whether it is casework or case management, 
group work, community practice, research or policy, and they 
should be able to work in any field of practice, be it 
gerontology, mental health, aging, child welfare.
    Critical to the BSW curriculum is the field internship 
where students are placed in social service agencies to learn 
the day-to-day aspects of social service delivery. At Monmouth 
our BSW students complete a 30-hour volunteer experience in the 
sophomore year, a 100-hour junior internship, and 450-hour 
senior internship. These internships are always supervised by a 
licensed social worker at the Master's level and the agency 
supervisors often take a course in supervision that many social 
work programs offer.
    So for example, Monmouth runs a course called SIFI, 
Supervision in Field Instruction, for all our new internship 
supervisors. The field internship is the place where academia 
meets practice. It is the applied aspect of social work and as 
such the vehicle that allows students to grow professionally 
and personally. A baccalaureate student usually knows they made 
the right choice of profession when they begin their field 
internship.
    I was asked to address both the challenges of undergraduate 
social work education and their strengths, and I see these to 
be the following:
    In terms of strengths BSW graduates have generalist skills 
and knowledge which allow them to work in many facets of social 
work. Their skills are portable, they are not tied to a 
specific job or function, but can be taken wherever the 
graduate goes and are applicable to a number of fields of 
social work practice.
    BSW graduates are idealistic and enthusiastic. They want to 
change the world. This idealism often helps social services 
agencies because these interns allow agencies and their staffs 
to remember their own idealism, and many times they help the 
agencies to see the situations in a new light and help to renew 
their enthusiasm for social work. They also help to rejuvenate 
their faculty.
    BSW students are at an advantage in the workplace because 
they are taught systems theory and learn to see the whole 
picture. They work well with professionals from other 
disciplines because they see everyone's role, they understand 
how roles fit together, and with their interpersonal skills 
they help to mediate difficult situations.
    In terms of challenges, recruitment is the biggest 
challenge facing undergraduate social work programs. Many 
people, especially parents, are under the impression that 
social workers only help the poor and take children away from 
families. They also have the impression that social workers do 
not make livable salaries. All academic social work programs 
work hard to negate these impressions, but until the society at 
large begins to change their opinion this will be difficult. 
Public education on what social work is and what we do as 
professionals is essential.
    Ensuring cultural awareness and sensitivity can also be a 
challenge, depending upon where the BSW program is located and 
who the students are. We need more bi- and trilingual social 
workers, and we need students to develop cultural awareness for 
all the clients and agencies that they come into contact with.
    Finally, ensuring that social work as a program stays 
vibrant and respected at the college or university level is 
also a challenge. This is an applied working discipline that 
does not often garner large research grants nor garners large 
donations, and there are times when its usefulness to the 
larger university can be questioned.
    Thank you again for this opportunity to speak to you.
    [The statement of Ms. Mama follows:]

Prepared Statement of Robin S. Mama, Ph.D., Professor and Dean, School 
                  of Social Work, Monmouth University

    Thank you for this opportunity to provide testimony for this 
important hearing. My remarks are focused on undergraduate social work 
education. I will generalize some of my comments to baccalaureate 
social work education, giving some specific examples from my experience 
at Monmouth University. I began teaching at Monmouth in social work in 
1992, became the BSW Program Director in 1998 (when we added a master 
of social work program to our curriculum), became the Chair of the 
Department and MSW Program Director in 2004, and I am now the Dean of 
the School of Social Work which was just created on July 1, 2008.
    Monmouth University has had a Bachelor of Social Work program since 
1977 and we added a Master of Social Work program to our curriculum in 
1998. We are very typical of a small to medium size baccalaureate 
social work program. Currently, we average 100 to110 BSW students in 
our program.
    There are over 400 Bachelor of Social Work programs in the United 
States. Some BSW programs stand alone in a department that is often 
combined with sociology, anthropology and/or criminal justice. Some BSW 
programs (like ours at Monmouth) are in a School of Social Work or a 
Department of Social Work which also offers a Master of Social Work 
program. Fewer are in Schools of Social Work that offer the BSW, the 
MSW and the Ph.D. in Social Work.
    All undergraduate social work programs draw heavily from content in 
the liberal arts. Students are usually required to complete courses in 
Sociology, Anthropology, Psychology, Economics, Political Science, 
Biology, and Mathematics, along with History, English and Literature.
    All undergraduate social work programs are generalist in their 
focus. Students in BSW programs do not concentrate in any area of 
practice or theoretical focus, as is common in MSW programs. BSW 
students are taught to be able to work in many areas of practice, 
whether it is casework or case management, group work, community 
practice or even research and policy. And they should be able to work 
in any field of practice, be it gerontology, mental health, child 
welfare, criminal justice, etc.
    The undergraduate social work curriculum introduces students to 
human behavior (the life to death sequences of events and milestones 
that all individuals go through), they are taught to assess clients, 
how to interview them, and then how to form an intervention plan with 
the client for their treatment. Students then look to evaluate how well 
their interventions worked, engaging in both practice and program 
evaluations. Students learn to make these assessments at the individual 
level (micro), with families (mezzo) and with communities (macro). They 
use a variety of skills in making assessments and in planning for 
treatment or for an intervention. A key component to these assessments 
is learning systems theory which helps the students see all of the 
factors involved in a client's situation. Another component is to take 
a strengths perspective to all assessments, looking specifically for 
strengths of the individual first, and deficiencies second.
    Critical to the BSW curriculum is the field internship, where 
students are placed in social service agencies to learn the day to day 
aspects of social service delivery. At Monmouth, our BSW students 
complete a 30 hour volunteer experience in the sophomore year, a 100 
hour internship in the junior year, and a 450 hour internship in the 
senior year. These internships are always supervised by a licensed 
social worker at the master's level, and these agency supervisors often 
take a course in supervision and field that many social work programs 
offer. For example, we run a SIFI course--Supervision in Field 
Instruction--for all our new internship supervisors.
    The field internship is the place where academia meets practice. It 
is the applied aspect of social work, and as such is the vehicle that 
allows students to grow personally and professionally. A baccalaureate 
student usually knows they made the right choice of profession when 
they begin their field internships. It is sometimes the case that 
students get hired by their field agencies upon graduation from their 
BSW program. For a social service agency that can hire their student 
intern, their investment into that student over the course of the 
academic year is very beneficial, as they know their new employee 
before they start work, and that person is already oriented to the 
agency and its culture.
    Not all BSW students go right to work however. Our experience at 
Monmouth is that about 80% of our students go right on to graduate 
education, usually the Master of Social Work. The other 20% go into 
employment.
    The advantage of going straight into an MSW program comes from the 
ability of a BSW graduate of an accredited program to apply for 
Advanced Standing in a number of MSW programs in the US. Advanced 
Standing programs allow accredited BSW graduates who meet admissions 
requirements to move into the 2nd year of graduate work. This means 
that the MSW degree is completed in one year, rather than the 2 years 
it normally takes for someone who enters an MSW program without a BSW 
degree (if the coursework is done on a full-time basis of 15 credits/
semester).
    This is an important feature of BSW--MSW education, as it indicates 
that the senior year of the BSW program theoretically is equivalent to 
the first year of graduate education and that prepared BSW graduates 
have the knowledge base and the skills to skip one year of graduate 
school. From my experience, properly prepared BSW graduates can move 
into graduate level education without a problem, and can then spend 
their year in graduate school refining their skills and deepening their 
knowledge.
    The first year of most MSW programs contain ``foundation'' courses, 
like Social Welfare Policy, Research, Human Behavior and the Social 
Environment and usually several practice courses like Individuals and 
Families, Group work, etc. Students also complete first year 
internships. At Monmouth, our students in the MSW program take their 
classes concurrently with their field internship, and complete 500 
hours of field work in the first year of the program. Two days of the 
week are spent in class and three days are spent in the field.
    In the second year of the MSW curriculum students choose a 
concentration, where they focus their academic work and their 
internship in a more specific area of social work practice. Almost all 
MSW programs offer at least two concentrations; some offer more 
depending on the size of the School or University. At Monmouth, we have 
two concentrations: Clinical Practice with Families and Children and 
the other is International and Community Development. The latter 
concentration is the only one of its kind in the US in a social work 
program. The ICD concentration allows students to go overseas in the 
spring semester of their final year to complete an 8--10 week 
internship in an NGO or government agency. We have internships 
currently in Ghana, Bangladesh, Southern India, Mexico, Chile, and Hong 
Kong. Both concentrations require another 500 hours of field 
internship.
    The Master of Social Work is the terminal degree in the social work 
profession, meaning that you do not need a Ph.D. to practice as a 
social worker and to receive third-party reimbursement for your 
clinical work. However, you do need a license. Licensure for social 
workers is required in all 50 states, and all 50 have varying 
requirements to obtain a license to practice social work. Each state 
differs on the naming of their licenses and not all states offer 
reciprocity to social workers who want to move their license from say 
New Jersey to Florida or to Wisconsin. Some states require a re-test, 
others require verification of clinical course work.
    In New Jersey, there are two social work licenses and one 
certification (the CSW, the LSW, and the LCSW). If you graduate with a 
BSW and go right to work, you apply for your CSW--or Certification in 
Social Work. There is no test for this certification, you need only to 
submit proof of your graduation from an accredited undergraduate social 
work program and pay the fee to the State.
    When a student completes the MSW, they can then take a test for 
their LSW--the License in Social Work. Any student at the MSW level 
should apply for their LSW. If you want to specialize in clinical 
social work and receive 3rd party reimbursement for your services (from 
Medicare, Medicaid, HMO's etc), then you have to take an additional 
test and work (with your LSW) under the supervision of another social 
worker who has the License in Clinical Social Work (LCSW) for 
approximately 2,000 hours to qualify for the LCSW license.
    Those social workers who desire the Ph.D. or DSW (Doctorate in 
Social Work) usually pursue doctoral work in order to enter the 
academic world. It is increasingly a requirement at Colleges and 
Universities for tenure-line faculty to hold a Ph.D. in their 
discipline in order to teach and to be conferred with tenure.
    Strengths of a BSW degree:
    1. BSW graduates have generalist skills and knowledge, which allow 
them to work in many facets of social work.
    2. These skills are portable--they are not tied to a specific job 
or function, but can be taken wherever the graduate goes and are 
applicable to a number of fields of practice.
    3. BSW graduates are idealistic and enthusiastic--they definitely 
want to ``change the world.'' This idealism often helps social service 
agencies because social work interns allow agencies and their staff to 
remember their own idealism and many times can help agencies see their 
situations in a new light and can bring about needed change and renewed 
enthusiasm.
    4. BSW graduates are at an advantage in a workplace, because they 
are taught systems theory, and learn to see ``the whole picture.'' They 
work well with professionals from other disciplines because they can 
see everyone's role, see how all roles fit together, and with their 
interpersonal skills can help to mediate difficult situations.
    Challenges for undergraduate social work education:
    1. Recruitment is the biggest challenge facing undergraduate social 
work programs. Many people (especially parents) are under the 
impression that social workers only help the poor and take children 
away from families. They also have the impression that social workers 
do not make livable salaries. All academic social work programs work 
hard to negate these impressions, but until society at large begins to 
change their opinion, this will be difficult. Public education on what 
social work is, and what we do as professionals is essential.
    2. Ensuring cultural awareness and sensitivity can also be a 
challenge, depending on where the BSW program is located and who the 
students are. We need more bi- and tri-lingual social workers. And we 
need students to develop cultural awareness for all the clients and 
agencies that they might come into contact with.
    3. Ensuring that social work as a program stays vibrant and is 
respected at the College or University level can also be a challenge to 
programs. This is an applied, working discipline that does not often 
garner large research grants, or large donations, and there are times 
when its usefulness to the larger University can be questioned.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Mr. Bird.

 STATEMENT OF MICHAEL BIRD, MSW, MPH, PUBLIC HEALTH CONSULTANT

    Mr. Bird. Chairman McCarthy and members of the 
subcommittee, I am pleased to be here with you today. As was 
mentioned, my name is Michael Bird. I have over 25 years in 
social work in a variety of areas. Most notably, I was the 
first American Indian and the first social worker to serve as 
President of the American Public Health Association.
    I have been fortunate in many respects. Most notably, I 
also have a Master's in public health, and I have found that 
the combination of the MSW and the MPH has served me well, 
served both my associations, and provides a unique perspective 
that I think has been relevant to the issues we are addressing 
today.
    Most importantly, we have mentioned some of the things and 
I have mentioned some of the things I have accomplished, but I 
think more importantly to me is the fact I am from Santo 
Domingo and San Juan Pueblo. I am a Pueblo Indian. My people 
have a documented history of being in the Southwest from 
anywhere from 30 to 40,000 years, with a unique culture and 
unique tradition and unique language. That has shaped and 
forced and focused my whole personality and my experience.
    But I am here today to talk about the importance and the 
role of diversity in social work. There really is a need to 
begin to really look at increasing the workforce and increasing 
a workforce that better serves the diverse population, the 
diversity of this country, but also increasing that workforce 
so that it better serves all of us.
    The social worker strives to ensure access to needed 
information, services, and resources, equality of opportunity 
and meaningful participation and decision making for all 
people. The profession is unique in that social workers are 
expected to understand different cultures and the function that 
culture plays in everyday life. They believe that strengths can 
be found in every culture and that building upon those 
strengths is the best way to help clients reach their full 
potential.
    The profession of social work values an understanding of 
different political, religious, and ideological beliefs, and 
social workers are expected to respect the dignity and worth of 
each individual that they work with.
    Social workers are not only expected to understand the role 
that social diversity plays on the society, but actively to 
work to end all forms of discrimination. The clients that 
social workers work with often are vulnerable and face 
prejudice and discrimination.
    Professional social workers support and advocate for 
recruitment, admissions, hiring, and retention efforts in 
social work programs and agencies to ensure diversity within 
the profession. They also seek to provide an advocate for the 
profession and information referrals and services in the 
language appropriate to the client.
    My career as a social worker and my background in public 
health have led me to a deep understanding of diversity issues 
in this country. Having worked to address health disparities 
with American Indian, Alaska Native, and Native Hawaiian 
communities, as well as all ethnic minority communities for 
over 25 years has been a major area of my personal and 
professional body of work. This is a moral and spiritual issue 
and cries out to be addressed. It is also wasting our most 
important natural resource, our human capital and the Nation's 
potential.
    As early as the U.S. census report in 1970, it chronicled 
there are major differences in social, economic, political and 
health conditions in the U.S. population. A Federal court also 
identifies the Latino and African American populations as 
having the lowest per capita income in the United States. And 
an argument can be made that Native Americans on reservations 
have lower per capita incomes but not included in the Federal 
studies.
    These statistics are unacceptable and social workers are 
the professionals equipped with the tools and understanding to 
make a real difference in the lives of their clients.
    Although the profession of social work has a rich history 
of respecting and appreciating social diversity, it also has a 
historical tendency to attract Caucasian women to the field. 
While women have done an exceptional job building a strong 
foundation of social service and strengthening individual 
families and communities, we must look to the future, and that 
involves reevaluating our recruitment and retention techniques 
with a commitment to diversity.
    Another concern is that of the aging. Not only does social 
work serve the aging Baby Boomers, but there will be a 
significant need to recruit new social workers once the 
professionals begin to retire.
    When I reflect upon my career in social work and public 
health, I believe that what attracted me to this area was a 
simple desire to help others who might be confronted by 
something larger than themselves. As a child I felt I had no 
control over my situation at home in growing up with an 
alcoholic father. This experience instilled in me a desire to 
help people gain some control in their lives. I also wanted to 
give them hope and a sense of direction.
    I also thought that only Indians had these kinds of 
problems. As I grew wiser I came to understand that we all have 
problems, just different kinds of problems, and that we all 
need help now and again. Social workers made a critical 
difference in my life, as they do in the lives of people every 
day.
    Thank you very much for this opportunity today.
    [The statement of Mr. Bird follows:]

 Prepared Statement of Michael Bird, MSW, MPH, Public Health Consultant

    Chairwoman McCarthy, Ranking member Platts, and honorable members 
of the Subcommittee on Healthy Families and Communities, I am honored 
to be here today to discuss the state of the profession of social work. 
My name is Michael Bird and I feel fortunate to have worked in this 
profession for over 25 years in many capacities including medical 
social work, substance abuse prevention, health promotion, disease 
prevention, and health care administration. In addition to my 
professional training as a social worker, I also have a master's degree 
in public health and have found this combination of careers and 
professional experience to be extremely valuable in my practice. I was 
the first American Indian and the first social worker to serve as 
President of the American Public Health Association and have been an 
active member of APHA for over 18 years. I've also served as president 
of the New Mexico Public Health Association and was a fellow in the 
U.S. Public Health Service Primary Care Fellowship Program.
Background
    I'm here today to not only discuss the important role that social 
work plays in our society but also the unique value placed on diversity 
in the social work profession. Social workers provide critical services 
to clients across the nation everyday. They work with a broad spectrum 
of clients including the homeless, the elderly, students at risk of 
dropping out of school, and the incarcerated from all racial, ethnic, 
and linguistic backgrounds. Social workers have an ethical 
responsibility to pursue social change, particularly with and on behalf 
of vulnerable and oppressed individuals and group of people. They also 
seek to promote sensitivity to and knowledge about oppression and 
cultural and ethnic diversity. Social workers strive to ensure access 
to needed information, services, and resources; equality of 
opportunity; and meaningful participation in decision making for all 
people.
    The profession is unique in that social workers are expected to 
understand different cultures and the functions that those varying 
cultures play in everyday life situations. They believe that strengths 
can be found in every culture, and that building on those strengths is 
the best way to help clients reach their full potential. Specialized 
knowledge and understanding about the history, traditions, values, 
family systems, and artistic expressions of major client groups is a 
key component to the practice of social work as well as the use of 
appropriate methodological approaches, skills, and techniques that 
reflect the workers' understanding of the role of culture in the 
helping process. Through education, experience, and training, social 
workers strive to understand the nature of social diversity and 
oppression. The profession of social work values an understanding of 
differing political, religious, and ideological beliefs and social 
workers are expected to respect the dignity and worth of each 
individual they work with.
    Social workers are not only expected to understand the role that 
social diversity plays on society but to also actively work to end any 
form of discrimination. Again, the clients that social workers work 
with are often vulnerable and oppressed and face prejudice and 
discrimination. In order to promote the welfare of each client, social 
workers recognize the importance that the environment plays in each 
situation. The profession utilizes a ``person in environment'' 
approaches that acknowledges the role that all social influences play 
on a person's biopsychosocial needs.
    Professional social workers support and advocate for recruitment, 
admissions and hiring, and retention efforts in social work programs 
and agencies to ensure diversity within the profession. They also seek 
to provide or advocate for the provision of information, referrals, and 
services in the language appropriate to the client.
    My career as a social worker and my background in public health has 
led me to have a deep understanding of the diversity issues in this 
country. Having worked to address health disparities with American 
Indian, Alaska Native and Native Hawaiian Communities as well as all 
ethnic minority communities for over twenty five years has been a major 
area of my personal and professional body of work. This is a moral and 
spiritual issue and cries out to be addressed. It is also a wasting our 
most important natural resource, our human capital and nation's 
potential.
    As early as the first U.S. Census in 1790, federal reports 
chronicled major differences in socioeconomic, political, and health 
conditions in the population. (U.S. Bureau of the Census, 1975). Today 
we feel the effects of these disparities. For instance, in 2001 Native 
Americans were the group most likely to be uninsured (35% lacked health 
insurance) (Census Bureau/National Center for Health Statistics, 2001). 
This has far reaching effects, particularly for the children of Native 
Americans. In fact, the Indian Health Service spends $1,914.00 per 
person for medical care which is lower than Medicare at $5,915.00 and 
less than the United States spends on federal prisoners at $3,803.00 
(U.S. Commission on Civil Rights Report titled ``A Quiet Crisis'' 
Federal Funding and Unmet Needs in Indian Country. July 2003).
    Federal reports also identify Latino and African American 
populations as having the lowest per capita income in the United States 
(U.S. Census Bureau, 2007). However, Taylor and Kalt (2005) argue that 
Native Americans on reservations have lower per capita incomes but are 
not included in many federal income studies.
    These statistics are realistic, yet unacceptable and social workers 
are the professionals equipped with the tools and understanding to make 
a real difference in the lives of their clients.
Challenges
    Although the profession of social work has a rich history of 
respecting and appreciating social diversity, it also has a historical 
tendency to attract Caucasian women to the field. According to one 
study by the National Association of Social Workers Center for 
Workforce Studies, ``social work, like most health care professions, is 
less ethnically diverse than the U.S. population.'' Licensed social 
workers who responded to the survey were overwhelmingly White, non-
Hispanic (86%) and are disproportionately likely to be women (81%). 
While white women have long led the profession of social work, the 
clients social workers serve often belong to a non-White minority group 
(51% or more). According to this study of licensed social workers, ten 
percent of social workers have caseloads that are predominantly Black/
African American, and five percent handle caseloads that are 
predominantly Hispanic/Latino. Additionally, only 14 percent of social 
workers work in settings in which their caseloads are 75 percent or 
more female. Efforts have begun to recruit more men into the profession 
to ensure that the needs of all our clients are successfully being met.
    Another concern is the aging of the profession. Not only do social 
workers serve the aging baby boomers, but there will be a significant 
need to recruit new social workers once experienced professionals begin 
to retire. Licensed social workers are significantly more likely to be 
in older age groups than the U.S. civilian labor force. A higher 
percentage of social workers are ages 45 to 54 (33% compared with 23%), 
ages 55 to 64 (24% compared with 11%) and 65 and older (5% compared 
with 3%).
    While women have done an exceptional job of forming the important 
tenets of the profession, building a strong foundation of social 
service, and strengthening individuals, families, and communities, we 
must look to the future and that involves reevaluating our recruitment 
and retention techniques. While a deep understanding of culture is 
intrinsic to every social worker, there is great value in reflecting 
the populations we serve. When every voice is present at the table, 
more informed decisions can be made and the community can be more fully 
served. Not only does everyone deserve the right to service, but they 
also deserve the right to be served by a social worker that makes them 
comfortable and can best understand and work to address their various 
social needs. More social workers of color must be recruited into the 
profession to ensure that clients can continue to have exceptional, 
culturally competent service.
Conclusion
    When I reflect upon my career in social work and public health I 
believe that what attracted me to this area was the simple desire to 
help others who might be confronted by something bigger than 
themselves. As a child, I felt that I had no control over my situation 
at home in growing up with an alcoholic father. This experience 
instilled in me a desire to help people gain some control in their 
lives. I also wanted to give them hope and a sense of direction. I also 
thought that only Indians had these types of problems. As I grew wiser, 
I came to understand that we all have problems, just different kinds of 
problems, and that we all need help now and again. Social workers made 
a critical difference in my life as they do in the lives of people 
every day.
    Social work and public health have always been guided by values of 
equity, diversity and social justice and these values should be guiding 
values for us all.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Bergeron.

 STATEMENT OF L. RENE BERGERON, PH.D., ASSOCIATE PROFESSOR OF 
            SOCIAL WORK, UNIVERSITY OF NEW HAMPSHIRE

    Ms. Bergeron. I would like to thank Chairwoman McCarthy and 
the members of this subcommittee for allowing me to testify 
today. I have a Bachelor's from the University of New 
Hampshire, a Master's from the University of Connecticut, and a 
doctorate from Boston College all in social work. Social work 
is truly the profession I love, and I am so pleased to be able 
to talk to you about it today.
    My testimony is based on my 30 years plus of practice as a 
medical social worker and as an outreach worker to elderly 
people in the community. Included in those years is also 24 
years of teaching at a university level and 10 years of 
conducting research. I would also like to add that social work 
has been personally very important in my life, as I have a 
child with Fragile X disease and so social work entered into 
our family's life at the date of his birth, and continued to be 
a part of our life as my father died of a brain tumor at home 
and as my mother developed severe Parkinson's and had to be 
placed in assisted living, and now with myself as I struggle 
with my battle with cancer. So social work is extremely 
important and just in my own family very varied in what it 
does.
    My testimony is going to focus primarily on research. To 
simplify, I am going to organize this into three categories: 
Who is responsible for research; what are the fields of 
practice that research needs to be conducted in; and where 
social work needs to go in the future with research.
    Social work education, as you heard, is primarily divided 
into three levels, baccalaureate level, Master's level and the 
doctorate level. The expectation is that the commitment of the 
baccalaureate worker is minimal. However, the work that they do 
opens our research base in order to see what is effective and 
useful in practice.
    The master level, while preparing primarily for practice, 
supervisory and management position, does have the expectation 
to do research. However, high caseloads often inhibit them from 
doing so.
    At the doctorate level the expectation is that in addition 
to administration and teaching they certainly will conduct 
research. Thus, this level of education is what drives research 
and places an obligation on doctors of social work to link with 
the baccalaureate workers, the Master's workers, agencies and 
clients themselves to produce a practice-based research that 
will enrich the field and identify effective interventions, as 
well as discourage interventions that are not very effective.
    The field of practice of social work, as you have heard, is 
very global, and this in fact can make research difficult. An 
overview is: Family interventions; that includes family 
violence. Child services, medical services; that include mental 
health issues, as well as catastrophic issues. Aging and 
gerontology; that includes elder abuse, neglect and financial 
exploitation. Anti-poverty programs; that include homelessness, 
job training, income assistance. Transitional programs, 
immigrant, refugee services, as well as veterans services. 
Clinical issues and discrimination issues.
    These practice fields suggest that creative approaches in 
research may include coordination of efforts among educational 
institutions, the various levels of practitioner education, 
practice agencies and organizations and of course the clients 
themselves.
    Research is basically divided into two types, qualitative 
research, which is exploratory and develops hypotheses for 
future studies. It also incorporates ethnographic types of 
studies. And then we have quantitative, which is just survey 
data based types of work, and it can include meta-analysis of 
large data banks like the U.S. Census.
    The future agenda of social work is multi-faceted and 
really is going to involve four main areas: Health care, 
general family issues, underserved communities, which is going 
to include substance and violence issues, and community needs 
such as disaster preparation.
    Research has an obligation to analyze creative approaches 
and meeting both national and international needs of clients. 
That involves faith-based services, volunteerism, and 
education. The need to know what changes in behavior and social 
factors could contribute to the effective functioning of 
clients and the efficiency of programs is important, both from 
a human factor and a cost factor.
    We cannot afford in this country not to support social work 
because those areas that go unsupported will have a great 
impact on all of the citizens who live here.
    Thank you very much.
    [The statement of Ms. Bergeron follows:]

 Prepared Statement of L. Rene Bergeron, Ph.D., Associate Professor of 
                Social Work, University of New Hampshire

    Organizing the needed research and developing standards of research 
matching other bodies of knowledge, such as medicine, sociology, and 
psychology began in the schools of social work and later translated 
into the complex fields of practice. What quickly became apparent is 
that the diversity of practice would dictate that no one theory could 
guide social work practice, but there would need to be several 
theories. Social work practitioners would need to be taught how to 
assess and choose the necessary theory for the particular client 
situation, evaluating its effectiveness and changing the intervention 
as dictated by its effectiveness. It also became clear that more than 
one theory may drive a case (a ``case'' being defined as a single 
client, family, or group). In 1949 the Social Work Research Group was 
established to help bring special focus to these challenges. Such 
challenges continue today.
    Social work education is primarily divided into three levels, the 
Baccalaureate (BSW) level, the Master (MSW) level, and the Doctorate 
(DSW or PhD) level. The expectation is that the commitment of the BSW 
practitioner is minimal in adding to the research base. What is 
expected is that BSWs have knowledge of theory and research, how to 
read and interpret it, and how to use it in practice. Their practice 
outcomes add to the field of research.
    The MSW level, while preparing primarily for practice, supervisory, 
and management positions, does have an expectation that these 
practitioners will contribute to the field of research by examining 
cases and conducting studies that show the effectiveness of their 
practice. However, the reality is that these practitioners, with high 
caseloads, do not have the time to conduct research.
    At the DSW/PhD level, the expectation is that, in addition to 
administration and teaching, research will be of paramount importance. 
Thus, this level of education is what drives research and places an 
obligation on Doctors of Social Work to link with the BSW, and in 
particular, the MSW practitioners to produce practice-based research 
that will enrich the field and identify effective interventions or 
discourage approaches that do not achieve the desired results.
Research Needs
    Because social work focuses on the intra- and the interpersonal 
aspects of clients' lives research must consider these aspects as well 
as the various settings of the client. The broad range of practice 
settings and roles makes it difficult to succinctly explain the various 
areas of that social work research that are needed because practice 
modalities and client needs continue to change.
Fields of Practice Affecting the Research Agenda
    The following is an overview of the various fields of practice; 
while not a final list it is meant to identify the complexity of and 
need for social work research today. In social work interventions it is 
understood that assessment is necessary in determining what the issues 
are facing the client or client system and the need for case management 
(the organization and assistance in implementing a case plan) is 
necessary. Additionally, The National Institutes of Health clearly 
states that critical behavioral and social factors affect the health 
and wellbeing of people and are important areas for research regarding 
treatment and, very importantly, prevention. (See Department of Health 
and Human Services, National Institutes of Health, NIH Plan for Social 
Work Research).
    The need to know what changes in behavior and social factors could 
contribute to the effective functioning of clients and the efficiency 
of programs is important both from a human factor and a cost factor 
perspective:
Family Interventions
    <bullet> Employment issues
    <bullet> Family therapy
    <bullet> Crisis intervention
    <bullet> Housing
    <bullet> Adult education
    <bullet> Incarceration and integration back to communities and 
families
    <bullet> Family violence
    <bullet> Family planning
Child Services
    <bullet> Safety/child welfare/foster care/prevention abuse and 
neglect
    <bullet> School social work
    <bullet> National and international adoption
Medical Services
    <bullet> Mental and physical illness
    <bullet> Substance use and abuse
    <bullet> Catastrophic
    <bullet> Congenital and accidental disability
    <bullet> Developmental/learning disability
    <bullet> Hospice/end of life counseling
Aging and Gerontology
    <bullet> Community services
    <bullet> Residential care
    <bullet> Caregiver issues
    <bullet> Medicare
    <bullet> Housing
    <bullet> Elder abuse, neglect, emotional abuse, financial 
exploitation
Anti-poverty Programs
    <bullet> Job training/placement
    <bullet> Income assistance
    <bullet> Food bank
    <bullet> Homelessness
Transitional Programs
    <bullet> Immigrant and refugee services
    <bullet> Veteran services
Administration
    <bullet> Program development and implementation
    <bullet> Clinical supervision and consultation
    <bullet> Ethical issues
    <bullet> Board and task force involvement
Clinical Issues
    <bullet> Counseling/psychotherapy/psychoanalysis/group therapy
Discrimination Issues
    <bullet> Racism, ageism, sexism
    <bullet> Lesbian, gay, bisexual, and gender supports
Research Agenda
    Examination of the above practice fields and issues suggest that 
creative approaches in the area research may include coordination of 
efforts among educational institutions, the various levels of 
practitioners' education, practice agencies and organizations, and of 
course the clients themselves. Two types of research approaches 
dominate the research field: qualitative research (exploratory research 
and the development of hypotheses for future research; ethnographic 
study; and single case designs); and quantitative research (survey data 
gathering and analysis; may include meta-analysis of completed survey 
date, e.g. U. S. Census, large study data banks). In addition, social 
work is very concerned with outcome studies to determine if practice 
approaches are as efficient and effective as they should or could be to 
assist clients and maintain agency and organization implementation of 
services.
    Social work research must be practice based; practice must inform 
research and research similarly informs practice. Educational 
institutions are well positioned to interface with the practice 
community in order to ensure the focus of research meshes with the real 
world needs, and also critical is the need to coordinate on a 
multidisciplinary level with allied professions and organizations.
    The future agenda of social work research is multifaceted and 
involves four main areas. One area, health care, includes discharge 
planning and care management, prevention of illness, effectiveness of 
health promotion, teen pregnancy prevention, mental health services 
including returning veterans and survivors of domestic violence. A 
second area needing continued attention is general family issues of 
child care, aging, family supports, family-centered practice, and 
family preservation. An added area are the underserved communities 
including persons substance abuse issues, refugee and immigrant groups, 
minority rights, welfare reform, housing and community development, 
economic depreciation and the accessing of services. This also 
encompasses community needs such as disaster preparation and response 
services, homeless service needs, the delivery of human services, 
public housing, schools in communities, and welfare to work programs. 
And last, creative approaches in meeting both national and 
international needs of clients that involve faith-based services, 
volunteerism, educational externship and internship programs, forming 
linkages among various disciplinary teams for more effective and 
efficient delivery of services.
Conclusion
    Social work is a dynamic field of practice driven by sound 
educational programs and research methodologies that build on that of 
other disciplines, as well as research that stands on social work 
practice exclusively. Social work research also has assisted, and will 
continue to do so, in the development of programs that affect the daily 
lives of the citizens of the United States from all social classes with 
an array of social issues that if left unattended will affect the 
quality of life for all or our citizens.
                                 ______
                                 
    Chairwoman McCarthy. Reverend Wells.

    STATEMENT OF REV. SARAH WELLS, EXECUTIVE DIRECTOR, GOOD 
                      SAMARITAN MINISTRIES

    Rev. Wells. Thank you very much. I appreciate you so much 
allowing me to come today and to share with you. I share with 
you the generalist view of social work. And social workers 
throughout America today are facing tragic situations, and we 
hear this every single day as someone will come and sit before 
us and break and begin to cry. But I would like to tell you a 
story of a young lady that I know of very well.
    This young lady had gotten married when she was only 14 
years old, which was very normal in the life of Tennesseeans, 
and she quit school and at 28 years old she found herself being 
divorced and left alone. So she didn't know any way at all to 
take care of herself. As she went off she took what money she 
had and she traveled all the way to Florida, where she had 
never been before. And there she set up a tent and began her 
family.
    She would tell her children that they were on vacation and 
everything was fine, that it was an enjoyable time. But at 
night when they would go to sleep she would hold them very 
tight and she would cry herself to sleep. She admits that this 
is the most frightening part of her whole life and she didn't 
know what to do and didn't know who to turn to. But her faith 
kept her strong, even though depression and thoughts of suicide 
plagued her every single day.
    In case you have not heard or that you have not guessed at 
this time, I am that woman and those are my children.
    I am very pleased to be able to tell you about a gentleman 
that came into my life. He was a social worker. It was the 
first time I had ever heard the words. They seemed very strange 
and frightening at first, but very important to me. He was a 
generalist, which meant that he looked at the whole picture. He 
was able to dissect my problems, break them down, and help me 
to be able to face them and confront them head on. We were able 
to make decisions together. He gave me all the facts that I 
would need.
    While I was going through this time being homeless nine 
times in 10 years I was also electrocuted, and I was told by 
one doctor I was very, very blessed to be able to be alive. And 
for that I admit today I am. At the time I did not feel that 
way. The pain was much greater than the pleasure of being 
alive.
    But through that time I did learn all about social work 
from all the way through the Master's and the LCSW and those 
who would walk by my side to help me become whole and healthy 
again. So I look at this and I know that the plan for me--I am 
a generalist social worker. That is very much important to me. 
I like being able to see the whole picture, to be able to find 
the resources, to give those people the life skills that they 
have need of. So walking together is very important.
    Today I am much happier, much healthier, and much stronger 
all because there was a social worker along the way in my life, 
and I am so very thankful for that.
    Today I see the greater needs at the time of homelessness 
for those that I am serving than even when I had. During that 
time I had people who at least could help me find part-time 
jobs, and now finding a part-time job is very hard. Waiting 
lists for housing is so hard. Recently I had a woman and 5 
children, I couldn't even put her in a shelter because her two 
older children were boys and they were ages 12 and 14.
    So we are facing so many different barriers that are 
stopping us from getting the care that they do need. Struggles 
are not new for social workers; however, for some of their very 
own, working for a ministry is very difficult. I have a lower 
income than most would ever expect. I work many more hours, I 
am paid very little, but also I have insurance. I do not have a 
retirement to look forward to, but what I have every day is the 
joy of being able to be with others that are hurting and to be 
able to lead them through that journey.
    I believe with all my heart social workers are helping 
angels. They are there to walk by the sides of those in pain 
each day. They work to bring positive change in this world, as 
you have already heard. Solutions are not simple; however, by 
working together well we will receive answers.
    Thank you very much.
    [The statement of Rev. Wells follows:]

 Prepared Statement of Rev. Sarah C. Wells, BSW, CSWM, Good Samaritan 
                               Ministries

    ``While the social service needs are dramatically rising, the 
ability to meet those needs is getting tighter.''

    Good Afternoon, my name is Sarah Wells, I hold a BSW from East 
Tennessee State University, I am Certified Social Work Manager, a 
minister with the United Methodist Church, and I work for Good 
Samaritan Ministries in Johnson City Tennessee.
    Last Monday I arrived to work to find that we had three consecutive 
families coming in with medical emergencies. All three had a parent 
with cancer, were facing death, and had to accept they were becoming 
homeless. The most urgent was a father, mother, and three children that 
were behind in rent and their utilities were in danger of being cut-
off. The father had been diagnosed with stage four cancer, the wife had 
lost her job while missing work caring for her husband, and they had 
received an eviction notice. The children were very quiet and seemed to 
cling to their parents during the interview. Soon I had heard that they 
were three months behind in rent totaling $1,200.00. The power bill was 
another $289.00, there was very little food for the family, and medical 
bills were piling up. It was hard to believe that this family's income 
last year was $60,000.00 and now they had lost everything. Due to a 
recent acquired homeless prevention grant, I was able to pay the rent, 
utilities, and give them food. Then I began my task of helping the 
family find the community and government resources needed in the future 
days to come.
    Social Workers throughout America face these tragic stories each 
and every day. They are trained to look at the ``whole picture'' and to 
assist individuals and families to form positive action plans. While 
the social service needs are dramatically rising, the ability to meet 
those needs is getting tighter. Many times finding the needed resources 
becomes difficult at its best, to an almost impossible task. By working 
for a ministry I normally would not have had the financial resources to 
help this family to the tune of $1,489.00, but due to the new grant 
opportunity that better allows our ministry to aid our community's 
homeless prevention assistance, they were assisted in-house. However, 
this just began the wide array of services that still had to be located 
to under-gird the needs. It is absolutely necessary to have excellent 
knowledge of, and communication with all community and government 
agencies. It is the role of the social worker to pull all of these 
resources together to be able to offer the means to solutions. In the 
aforementioned case, this particular family was rescued from 
homelessness and having to move at such a delicate time, but many 
others are forced to leave the security of their sanctuary and all that 
is familiar to them. America's schools are now overwhelmed with the 
special needs of homeless and at-risk children. The elderly are now 
facing homelessness at a greater rate than ever before.
    I would now like to tell you about another family: a mother that 
quit school at fourteen to marry and had to face divorce at age 28. 
She, like so many, had no idea how to support herself, or her two 
children. She got into her car with her children and drove from 
Tennessee until she ran out of money for gas in Florida. She had a tent 
for the family to stay in until she could find work and housing. She 
reminded her children that they were on ``vacation'' and that camping 
was fun. Each night after the children went to sleep she cried and held 
them tight. The mother admits to having more fear during that time than 
ever in her life. She was blessed with two part time jobs and a small 
apartment in which to live. Unfortunately, there was never enough money 
to pay the bills and each month the family faced eviction and 
termination of the utilities. They found themselves homeless nine times 
in ten years, and during one period they lived with no power for six 
weeks, without water for four, and knew no one to help. The mother had 
never asked for help in her life and was raised to be strong. 
Depression and thoughts of suicide were with her everyday, but because 
of her children, she had to go on. One day she walked into a social 
service ministry and met a wonderful gentleman. This was the first time 
she had ever heard the title ``social worker.'' He listened as she 
cried and watched as she dumped all of her bills and receipts on his 
desk. After reviewing the items, he pulled out a checkbook. She cried 
out that she had not come to beg, but to be taught to budget. He said, 
``No money, no budget.'' He paid all her current bills and then set a 
budget. As the visits continued over the next few weeks, he helped her 
to see areas that she could receive help. Finally, he helped her enroll 
in school and she began her road to a new future.
    If you have not guessed by now, I am that mother and those are my 
children. I am your homeless * * * the hopeless, but now one that knows 
success and hope for a lifetime. I was privileged to have a social 
worker that was educated, that cared, and listened to me. He did not 
feed me for a day, but taught me to fish. I completed my education with 
lots of help and I too, became a social worker and now even a minister. 
I now give back by helping others as they overcome their journeys of 
pain. My past has made me more sensitive to the struggles of others, to 
have deeper wisdom, and to firmly believe in accountability. I have 
helped start 8 agencies that assist the poor, and I serve as the pastor 
of a United Methodist Church. Being able to work each day to lighten 
one person's load makes my past struggles worth it all.
    Today, I see much greater needs than those in my time of 
homelessness. It is harder to find and to keep jobs these days not to 
mention the lack of safe, affordable housing. Utility and rent deposits 
are astronomical. Most of the low-income people cannot meet the needed 
payments to obtain housing. Waiting lists for affordable housing are as 
long as two years. If a person with no income gets into public housing, 
they are required to still pay a minimum of $25.00. There is not enough 
transitional housing or shelters, with lengthy housing waiting lists. 
Many of the shelters do not allow mothers with boys over the age of 
twelve, nor single fathers with children to stay at all. Disability 
requests now take from 2-4 years for a decision and there is very 
little help for those waiting. The list goes on for obstacles to 
service and we face services being cut each day.
    Struggles are not new to social workers; however many have some of 
their own. Working for a ministry is financially difficult. Most are 
paid very little, are provided no benefits, insurance, nor retirement. 
Fulfillment and dedication keep them serving and doing work for others. 
The role of the social worker is evolving to become even more 
intricate, however it remains the stronghold and bridge for those in 
need. Lives are guided by the ``helping angels'' serving in ministries, 
agencies, and government settings each day as they work to bring 
positive changes to our world. Solutions are not simple; however by 
working well together we will receive answers.
                                 ______
                                 
    Chairwoman McCarthy. Thank you.
    Ms. Fuller.

   STATEMENT OF ADINA FULLER, MSW, LICENSED GRADUATE SOCIAL 
      WORKER, DEPARTMENT OF YOUTH REHABILITATION SERVICES

    Ms. Fuller. Good afternoon, Madam Chair, committee members.
    Chairwoman McCarthy. Could you bring the mike a little 
closer?
    Ms. Fuller. My name is Adina Fuller. I am a licensed social 
worker with the Department of Youth Rehabilitation Services in 
Washington, D.C.'s juvenile justice system. As a social worker 
with DYRS, I am responsible for the management and care of 27 
youth on my caseload who have been committed to our agency by 
D.C. Family Court for acts of delinquency.
    D.C. case management protocols require that I meet with 
youth twice a month, speak with them over the phone weekly, 
also make collateral contacts with parents, teachers, anyone 
else who is involved with the child.
    Most of the young people committed to DYRS come from the 
most vulnerable communities in D.C. I often have to provide 
supporting guidance not only to the child but also the 
families. And my job takes me into their schools, their 
neighborhoods and their homes.
    The goal of our agency is to ensure that young people are 
provided with an enriching and educational experience that will 
enable them to become productive citizens in their communities.
    Over the past 4 years, DYRS has taken on the task of 
reforming the juvenile system with the idea of improving 
community safety, as well as achieving better outcomes for 
young people. We have adopted the principle of positive youth 
development, which draws upon the strengths and the needs of 
the families, as well as helping them to find the resources and 
the support that they need to meet their own needs, but also we 
don't like to focus on the deficits, because we know that 
people struggle. So we definitely look for the strengths in the 
youth in the family.
    We have added a host of services to young people to include 
in-home family counseling, service-learning projects, new 
educational experiences, employment training and job placement 
assistance.
    A day in the life of a social worker is often varied by the 
crisis that a family is in. It also requires counseling 
support, information, and referrals. I spend countless hours 
researching information over the Internet, reading newspapers, 
and also speaking with fellow social workers who obviously are 
doing the same thing I am doing in terms of finding those 
community-based programs that are available to youth and 
families.
    Part of my job entails that I help them to develop viable 
transitional plans so that they can successfully return home. 
Throughout the process of engagement an assessment is important 
for youth and families to identify their strengths and their 
needs. It is my job to identify the resources, the services and 
support that would enable them to achieve their goals with the 
help of them becoming self-sufficient and accepting personal 
responsibility. Those meaningful experiences is what enables 
youth and families to improve the quality of their own lives.
    Today I have a young person who is placed in a therapeutic 
group home, and right now his relationship with his mother has 
significantly improved, because he is in our care, but also 
because the youth and the family understand that they must now 
work together so that there is less conflict and more cohesion 
within the family system. This young man attends an after-
school program with Sasha Bruce Youthworks, and it is our 
collective responsibility to help the family improve their 
functioning.
    We have monthly team meetings to discuss our next steps, 
plans and goals. And when given an opportunity most families 
learn that they can effectively communicate with each other. 
And this particular young man will be returning home within the 
next 30 days. He will continue to receive special education 
services, intensive third-party monitoring, family therapy, and 
participate in those after-school programs so that he doesn't 
have a lot of idle time in the community.
    I have another youth who invited me to attend his high 
school graduation, and this was a young man who came into the 
system for committing an obvious offense, but with individual 
therapy he learned how to manage conflict, as well as to 
peacefully resolve his differences. We met biweekly to discuss 
what he had learned in anger management and to explore after-
school employment opportunities. So as a social worker I 
assisted him with completing on-line job applications, but 
after some careful thought he decided that he wanted to play in 
the high school band and serve meals to the homeless.
    Although he made a poor decision, he did not allow that to 
ruin his opportunity to become a productive young person. He 
participated in a group interview at Trinity College where he 
was selected as a candidate to receive one the scholarships 
available through Bill and Melinda Gates Foundation, and he 
will be attending Johnson and Wales university in Providence, 
Rhode Island this coming fall. So for him this was a meaningful 
experience and it is something that he desired to do.
    So I am glad that I have those experiences and those 
successes, and that is what makes me enjoy social work as well.
    [The statement of Ms. Fuller follows:]

   Prepared Statement of Adina Fuller, MSW, Licensed Graduate Social 
          Worker, Department of Youth Rehabilitation Services

    Good morning Mr. Chairman, committee members, and other 
distinguished participants. My name is Adina Fuller and I am a licensed 
social worker at the Department of Youth Rehabilitation Services--
Washington DC's juvenile justice system.
    Prior to coming to DYRS, I was a social worker in DC's child 
welfare system.
    As a social worker at DYRS, I am responsible for managing the care 
and supervision for 27 youth on my case load. These are all youth who 
have been committed to the department by the DC Family Court for acts 
of delinquency.
    DYRS case management protocols mandate that I see all the youth on 
my case load twice a month, talk to them once per week, regularly 
update their case files in our data management system, and connect my 
youth with appropriate services, programs, supports, and opportunities.
    Most of the youth committed to DYRS come from the most vulnerable 
communities in Washington. I often have to provide support and guidance 
not only to my client, but also to their families. My job takes me into 
the schools, neighborhoods, and homes of all the youth I serve.
    The goal of our agency to ensure that youth are provided with 
opportunities that will provide an enriching and educational experience 
that will enable them to become productive citizens in their 
communities.
    Over the past four years, DYRS has been engaged in a huge reform 
effort. In order to improve public safety and achieve better outcomes 
for youth DYRS has been making a number of changes in the system.
    DYRS has adopted the principle of Positive Youth Development as its 
overarching reform agenda--to build on young people's strengths and 
assets instead of solely dwelling on their deficits.
    DYRS has added a host of new services and supports for the youth 
and the family we serve, including: in home family counseling, service 
leaning, employment training and job placement, new educational 
experiences, and other Evidence Based Practices.
    To give a snap shot of a day in the life of a DYRS social worker, I 
will briefly review the case of one of my youth:
Case Review
    A day in the life of Social Worker is often varied by the 
circumstance of the youth and family whether is it a crisis, counseling 
support, and/or information and referrals that will enable a youth and 
family to address their needs and concerns. I spend countless hours 
beyond my tour of duty counseling youth and families on developing a 
viable transition plans out of the juvenile justice system. Throughout 
the process of engagement and assessment, it is important for youth and 
families to identify their strengths and needs. It is my job to 
identify the resources, services, and supports that would enable to 
them achieve their goals that would enable them to become self 
sufficient and to accept personal responsibility for their lives. Those 
experiences must be meaningful, which improves the likelihood that the 
youth and family will be vested in improving the quality of their 
lives.
    Some parents seem to rely upon me as a co-parent, particularly, if 
they are unable to effectively reason with their adolescent. I have a 
young person who will completing his stay in one of our therapeutic 
group homes whose relationship with his mother has significantly 
improved during this out of home place. While in placement, the youth 
and family were connected to the Department of Mental Health Services 
to receive individual therapy (youth), family therapy, and medication 
management. The family meets with the Psychologist on a biweekly basis 
in their home while the young person participates in individual and 
group therapy with a Psychologist in the therapeutic group home. He 
also attends an after school program at Sasha Bruce Youthworks. It is 
our collective responsibility to ensure that the young and family have 
improved their capacity to function as a unit. We have regular team 
meetings on a monthly basis to discuss our next steps and goals that 
will ensure the young person will successfully transition home. I have 
to maintain regular contact with parents who have provided insight of 
how they intend to supervise, reward and encourage her child to 
continue making responsible choices. When given an opportunity whereby 
parents and children can learn to effectively communicate with each 
other, it is amazing how they come to appreciate each other's 
differences when placed in an setting that is non threatening and non 
judgmental. I also work closely with teachers who often contact me to 
set schedule parent/teacher conferences and to schedule individual 
education plans (IEP) meetings to ensure that the young person is 
receiving educational supports and services. I have to maintain contact 
with the group home staff and therapists to discuss the young person's 
adjustments in a structured settings and encouraging youth to sustain 
their compliant attitudes and behavior during weekend visits at home. 
This young person will be returning home within the next 30 days with 
an identified transition plan. He will continue to receive special 
education services with District of Columbia Public Schools, third 
party intensive monitoring, continued in-home family therapy with 
Universal Healthcare, a core service agency with the Department of 
Mental Health, and continue to participate in the afterschool program 
with Sasha Bruce, which will continue to provide him with the 
opportunity to participate in constructive activities
    I have a youth who invited me to attend his graduation from a DC 
Public School. While under my supervision, the youth and family were 
referred to individual where he learned how to manage conflict and 
peacefully resolve differences by asking for the support of other 
adults in the school setting. We met on a biweekly basis to discuss 
what he learned in anger management and to explore after school 
employment opportunities. He was assisted with completing online job 
applications with CVS Pharmacy, Harris and Teeter, and Home Depot. 
After some careful thought and consideration, he decided that he would 
pay in his high school band and volunteered at So Others May Eat, 
serving meals for the homeless, because it was important for him to 
demonstrate that he had varied interests, talents, and his way of 
giving back to those who were less fortunate. Although he erred in his 
judgment, he demonstrated that it was a regrettable offense, but he did 
not allow it ruin his chances of becoming a productive young adult. He 
recommended by his teachers to participate in group interviews that 
were held at Trinity College asked to vie for an opportunity to receive 
a scholarship from the Bill and Melinda Gates Foundation. He seemed so 
posed when he answered questions whose themes centered about race/
ethnicity, team building, and diversity. I am happy to report that he 
will be attending Johnson and Wales University in Providence, Rhode 
Island in August 2008. He plans to major in Business Administration and 
Culinary Arts because he intends to own his own restaurant in the 
Washington, DC. He was awarded a scholarship after completing the 
rigors of their program. He plans to major in Business Administration 
and Culinary Arts because he intends to own his own restaurant in the 
Washington, DC.
                                 ______
                                 
    Chairwoman McCarthy. Thank you. With that, I will start the 
questioning.
    Listening to your testimony and having read the testimony 
the other night, one of the things that I want to ask is 
obviously we have talked about diversity, and I represent a 
fairly large underserved area and to me sometimes its 
overwhelming with some of the constituents that come to us when 
they don't know where to go. I had mentioned earlier that I 
have a social worker on my staff, but even with that, trying to 
pull together the services for some of these constituents that 
have multiple issues that need to be worked out, and each 
agency is a separate entity to start with, I find it mind 
boggling, I truly do. So I have gone through, unfortunately, 
serious injuries in my family. So I know what the social worker 
did for me. I spent my life as a nurse, by the way, up to that 
point and so I thought I knew everything until I couldn't 
handle anything and that is what it came down to.
    With that being said, we are talking about diversity and, 
Dr. Mama and Mr. Bird, I think that you bring that subject up. 
How do we get the diversities to be able to see their way on 
becoming social workers to become part of the community, to 
heal their community, to help their community? What is being 
done to try to recruit?
    Obviously, you know when we look at our Nation today, it is 
a very large diversity. And those communities and all 
communities at one time or another are probably going to need 
the help of a social worker. Is there anything that you see or 
any of you see on how we could bring that diversity into 
encouraging young people, anybody, second jobs actually, not 
even a second job, second careers that we can fill those needs?
    And I will open that up.
    Dr. Mama. That is a very good question, and I think in 
terms of schools and social work programs we try to be as 
available in the community as possible. One of the things that 
helps when we try to recruit students--in fact, we take this 
from a student perspective--is that we try to reach students in 
high schools, in community colleges. We try our own students in 
their social work activities, try also to go into various 
communities surrounding the college, all of which are diverse 
at Monmouth, and to do service projects, learning projects, 
research projects, help with the community. So they are almost 
like ambassadors into those communities in helping them to see 
some of the value of social work.
    But the university itself tries to make available 
themselves to students from diverse communities to try and pull 
them into the university. And some of that has to come through 
recruitment and marketing and those usual pieces. But some of 
it also needs to come in the form of financial assistance for 
students in diverse communities to be able to come to college 
and making loans available to families and opportunities 
available in terms of financial assistance.
    I think it also requires that programs themselves be open 
to opportunities. Right now Monmouth has an increasing number 
of men and women, but mostly women from an orthodox Jewish 
community south of the university coming into our program, into 
the Master's program, for the reasons that you mentioned. They 
want to now go back into their own community to help their 
community. And the only reason I think that we are seeing 
increasing numbers come to Monmouth is because we have been 
very open in terms of how we structure our classes, allowing 
them to miss classes for religious observance and not 
penalizing them in their education and being respectful of 
their needs as a religious community.
    Chairwoman McCarthy. Mr. Bird.
    Mr. Bird. Yes. As I understood your question, you were 
talking about--my response would be that in terms of I think we 
have to begin to view diversity as a strength, not as a 
weakness or a threat. In many cases, at least in my experience 
both in social work school, graduate school and as well as in 
the public health arena, there were times because I was 
different, because I was different than dominant society, I 
think there were times that people felt like embarrassed to 
engage me in discussions about what the reality for Indian 
people in this country is today. And because of that we 
wouldn't go there and we wouldn't have a fruitful discussion or 
a dialogue that really would benefit everyone. This goes beyond 
the Indian community obviously. I think all of us have so much 
to learn from each other, and I am reminded of a quote by Will 
Rogers, Cherokee humorist, and that quote is, we are all 
ignorant, just about different things. And I think until we 
come to the table recognizing that we are all ignorant and that 
we all have something to learn from each other and find some 
common ground in terms of--like the lady who spoke of her 
homelessness, that condition in that situation, that is, you 
know--I mean, I respect that, appreciate that, but that sort of 
experience transcends her community or her State. There are 
native people throughout this country, they are in rural and 
urban areas, who experience very similar sort of circumstances.
    So rather than sort of look at what makes us different, I 
think we need to move towards the common experience, what can 
we learn from that experience and how can we really build a 
community that is inclusive, that recognizes that we all are 
part of a larger community. And until I think we have that sort 
of honest bringing people to the table, I think we will 
continue to face many of the challenges that we face.
    Chairwoman McCarthy. I hope you are right, because I have 
been waiting a long time to see that happen in this country.
    With that, Mr. Davis.
    Mr. Davis. Thank you. It looks like we are all the health 
care providers today. You are a nurse, I am a respiratory 
therapist and a lot of social workers. We could just about 
start a clinic today.
    Ms. Wells, thank you again for sharing your very personal 
testimony. I know sometimes that is not easy to do and I do 
appreciate you doing that for us. Could you talk a little bit 
about how your background and your education came together, and 
how you used those together to provide services in our 
community and a little bit about your personal philosophy of 
how you actually help families.
    Rev. Wells. At age 14 years old when I quit school, and 
that was the norm for growing up in my family. Most the women 
were married by the age of 15 years old. But I still had this 
desire to go back to school, even though my mother told me I 
didn't need it, I was just going to be a wife anyway. So at 18 
years old after I had been married for 4 years, I went and I 
took my GED. I had to slip off in order to do that and to hide. 
And when I went in they told me that I would not be able to 
take it that day because I had not gone back to school in order 
to take the GED. But I talked the young lady into letting me 
going in and taking it. And I walked out with my paper stated 
that I had indeed graduated that day.
    I was very proud of that, and that helped me in seeing the 
needs of those that I work with on a daily basis. I work with 
so many that quit school as they are very, very young, and 
there is no hope for them to go back to school. Of course 
working with our Families First in the State of Tennessee, we 
at Good Samaritan Ministries are a site for those coming in. 
And when they can't get a job, they come in to us for job 
training and placement.
    So the exciting part is to be able to share my story with 
them on each and every day basis and letting them know that I 
know where they have worked, what journey they are going down 
and that I too can be there as a help for them. But it is an 
encouragement to know you can escape poverty, which is 
definitely a killer of dreams.
    The young man that worked with me taught me something very 
special. He sat down and he said, barring the fact that you 
have no money and you don't know anybody, you don't know where 
you are going in life, if you were to dream today, what is it 
that you would tell me that you would like to do? So that is 
where we began because I also wanted the help field more than 
anything. And after meeting him I wanted to be a social worker. 
I wanted to be able to share with others and hold them and to 
help them, but also bring that wisdom that it is also in our 
minds and in our hearts whether we want to go forward.
    As I told you, it was very difficult for me because every 
day I wanted to escape and I wanted to be able to take my own 
life even at those points. And it is for me that he gave me 
that hope to allow me to dream. So now when you come to my 
office the very first thing is we have a dreaming session. We 
go back to the very first thing that you ever knew that you 
wanted to be. And then we look to see what would it take today 
for you to be there and what is it you would like to do today.
    So I believe in having those dreams and to getting up and 
going on and being strong. That helps me so much in working 
with those that are actually the street homeless also. This 
past year we had six that came and had been with us for several 
years. We lost all six of those to death. And on one of those, 
one of our homeless ladies did something I didn't know to do. 
She went to the library and typed in and she found his family. 
She came in and told me their phone numbers. So we had a 
gathering that night and had a funeral. And we had cell phones 
all over the room and the family was able to have closure by 
being there and hearing how their loved one lived and how they 
grew and were healthy in the end. So there was closure for 
their family.
    That is in my heart, it helps me to know that without a 
doubt that that is very important. I have closure in my life, 
too. It doesn't bother me at all to talk about my past, not 
anymore, there is no pain and there is no sorrow, because I 
have been allowed to know success, and I just want to share 
that success with others.
    Mr. Davis. Thank you. One of my favorite quotes comes from 
Henry Ford. He said if you think you can or if you think you 
can't, you are right. That is the type of people we deal with 
as Members of Congress; that is the type of people you deal 
with in your profession. And I thank each and every one of you 
for doing that. And if you let people know if they have a 
dream, they can do anything they want to in America.
    Just real quickly, Ms. Wells, you talk about you provide an 
all encompassing type of social work. How do you pool the 
resources together to be able to provide these other services, 
homeless, food, education? Just real quickly.
    Rev. Wells. At Good Samaritan Ministries we have an on-site 
food pantry, we have off-site feeding called the Melting Pot in 
Johnson City, Tennessee. So we are able to come up with a list 
that we can give them about food, and we can help them with 
food. That is never a problem. Our community does very well at 
feeding its poor.
    When we get into the complicated cases such as those like 
mine, it is pulling together our resources. For me it was 
vocational rehabilitation, it was going back to school. Even 
though I was told by the college and so was my social worker 
that with my disabilities, because I was legally blind for 3 
years and was disabled, and they felt that my disabilities were 
much too great in order for me to go. So even above those 
disabilities it was looking at the programs that were community 
and government-based that would be able to work hand in hand.
    Our office on a daily basis are gleaning out all of the 
resources, checking to see what the situation is, what do you 
have to do in order to be able to apply for their services. We 
keep all of their applications there in our office, so they are 
helped to fill out their applications. We also make their 
appointments, and if they need an advocate that is what we are, 
we go with them, especially getting into housing.
    Like I told you, the woman who really frustrated me the 
other afternoon, this is one of the first times I have felt 
this frustration for us in our community. She was from Nigeria, 
she spoke very little English. She had five children ages from 
4 to 17. Two of the boys were ages 4 and 17, so they couldn't 
go into the shelter with the mother. I called every shelter in 
the tricities area and they all told me the very same thing. 
Then I began what would be the normal thing for the night, I 
can't let her sleep on the streets. So I called a motel and 
they refused to allow me to bring her in to the motel due to 
the fact that for her--you are not allowed more than three 
people in a motel.
    So we are still facing a lot of barriers and resources that 
are needed. Family shelters is the one that I realized for our 
community that we are needing. So now we just work together in 
finding those resources on a daily basis.
    Mr. Yarmuth. Thank you, Madam Chairman.
    I want to thank all the witnesses also for their testimony.
    One of the things that has been very striking to me, as I 
have traveled around my district in Louisville, Kentucky, and 
visited many varying social service agencies and different 
programs, is that you can analyze the value of social work in a 
variety of ways. Certainly we have talked a lot about the 
compassionate side. Social workers do provide comfort and aid 
to a lot of people in distress, as we have heard.
    But I also want to focus for a minute--I am going to sound 
like a Republican here--I want focus a little bit on the 
economic side.
    Ms. Fuller, you talked about one young man that you helped 
take from a very at-risk, vulnerable position and turned him 
into a person with a promising future. We have done a lot of 
work here on the Runaway and Homeless Youth Act, and we hope 
that the Senate will get its act together and pass it on their 
side, as we did.
    One of the things that I found in my hometown, we had a 
young man named Rusty Booker, who testified before this full 
committee some time ago, who was someone who had been in five 
different foster homes, had been homeless and was destined 
statistically for a dependency status. He was going to be a 
drain on society, there is no question about it.
    A similar thing happened to him through the programs that 
the Runaway and Homeless Youth Act funds. Case managers, social 
workers got him the services, the guidance he needed. He is 
going to go off to college this fall as well.
    So my question to you is over the course of a year, how 
many young people do you think that you help move from a 
position in which they are going to be a drain on society and 
which they are likely to be a positive contributor to society?
    Ms. Fuller. I think every youth I serve, they don't 
intend--I mean, they didn't grow up wanting to become 
criminals. I mean, sometimes just the circumstances, the 
impoverished states of the family just puts you in a position 
where it is about survival. But most do want to do something 
different.
    So it is my responsibility to, in any way I can, to find 
that service that meets their needs, because it is a host of 
programs that we can refer them to. But if it is not a good 
match, if they don't feel comfortable, if they don't feel like 
someone is connected to them, then they won't complete.
    So it is about relationships, and it is about engagements. 
Those youth do go on to complete the programs, and most end up 
in just entry-level jobs, but that is a good thing, because we 
are helping them to establish their character, their work 
ethic, their integrity.
    Mr. Yarmuth. I am just trying to get a sense of a cost-
benefit analysis. If you pay a social worker--I don't know what 
the average social worker makes, I know it is not very much. 
Certainly it is probably lower than the average income in the 
country, I would say, not much more--you are smiling. But I am 
talking about how many people during the course of the year, in 
the same situation as that young man you talked about, would 
you help turn their lives around?
    Ms. Fuller. Every one of them if given the opportunity.
    Mr. Yarmuth. Because I think what----
    Ms. Fuller. This is about vocational training, because some 
students are somewhat behind, so by the time they get to 16 and 
17, there is a lot of catching up to do. So my focus becomes 
skill-based; what is it that you are good at, what can you do, 
what do you want to do, and then taking that skill base and 
helping them to sort of foresee whatever it is that they want 
to do.
    So for me it is about connecting them to employment 
assistance training programs, job-training programs. In part of 
that you do get that educational piece in terms of their GED, 
but 16, 17 is about being able to have a skill so that you can 
become employable.
    Mr. Yarmuth. Thank you.
    I want to ask Dr. Bergeron, because you do research, has 
there been any research done on the cost-benefit analysis of 
money spent on social work?
    Ms. Bergeron. Yes, and I certainly could send you some. 
There has not been enough. What we do know is that the earlier 
we begin intervention, the less costly it is, and the more 
successful we are. It is so broad-based. I mean, I am just 
thinking of your story, and, you know, right away I was 
thinking, research, research.
    You know, whoever decided that in adult education, for 
somebody to get their GED, that they had to return back to 
school, is that a good policy? That is a great research 
question. We decided not to let boys ages 14 and up into 
shelters. Originally that was decided because of violence 
issues. But is that a good policy? We need research to begin to 
decide, you know, if we are going to attract women to shelters. 
They are not going to give up their boys any more than they are 
going to give up their little girls.
    So there is a cost benefit. The question really is if you 
don't intervene, what is the cost? The cost is huge. Had my son 
not received services, and had I not had the professional 
background I had, I can tell you right now he probably would 
not have his driver's license. He would not be employed. He 
would not be able to communicate very well to people. The cost 
benefits to society would be huge.
    So let me see what I can get to you, because it is an 
excellent question.
    Mr. Bailey. May I also respond briefly, if that is within 
the protocol?
    There are some studies, Michael Barth out of a Hartford 
study in 2001, that really looks at the cost-benefit analysis 
of the role of intervention--of prevention versus intervention, 
which I think is part of the question; that clearly it costs 
more on the back end to provide the service than it does to try 
to remediate the service on the front end and prevent the care, 
long-term care.
    We also know, through the National Association of Social 
Workers, Center for Workforce Studies, as we begin to evaluate 
the value added of social work to the United States, that, 
indeed, having social workers present reduces more costly 
episodes in children's lives. And we can also think about this 
in terms of the elder parent who is at home who, if they can 
get the geriatric wrap-around services, won't require a nursing 
home immediately, won't break a hip. So that we know that 
prevention is always, always the way to go rather than waiting 
for intervention. Intervention is always more costly.
    Yes, social workers are not compensated at that time rate--
the average social worker salary is about $26,000 across the 
United States. That does well in some places and not well in 
most.
    Chairwoman McCarthy. We actually are going to have a second 
round, I just asked some of my colleagues, because I think a 
lot of us have a lot more questions.
    Is anybody on the panel in a time restraint? Great.
    Mr. Davis.
    Mr. Davis. Thank you. I am just going to have some very 
generic questions for anybody on the panel that would like to 
answer.
    The first, how do you protect privacy of your clients, 
anyone?
    Mr. Bailey. Part of our code of ethics of the profession is 
protecting the confidentiality of your client, with the 
exception of suicidality and homicidal threats or tendencies, 
so that confidentiality is of paramount importance in the field 
of social work that we are--it is part of what is trained into 
you from the very beginning, that you respect the 
confidentiality of your clients, with those exceptions, if that 
is the question.
    Mr. Davis. Yes.
    Mr. Bailey. We also are looking at the moves around 
electronic records and particularly around medical records, and 
are going to be looking at and coming up with recommendations 
from the national association around standards dealing with 
electronic--with electronic records. That is of concern.
    Mr. Davis. Anyone else like to answer that?
    Rev. Wells. I know as far as for our office, when they come 
in, we do it by the HIPAA rules, and we are very, very 
cautious. If someone calls to talk with someone on the 
telephone, I do not even allow anyone in my office to identify 
that they are present there.
    We will take the name of the person and go and seek, and 
let them know if they are present, they will give them a call 
back. So we will not even make mention that they are in our 
office for any reason. So we go the extra mile to protect their 
privacy.
    Mr. Davis. Thank you.
    Next general question for anybody on the panel. Can you 
talk to me about faith-based initiatives and faith-based 
programs; are they working, not working? Would you like to see 
them continue? Anyone.
    Rev. Wells. I think the White House just came out with a 
new research, according to the faith-based funds that have been 
released and how effective they were, and we were very excited 
to see that the faith-based programs are much more effective 
due to the fact that we are used to already operating on a 
shoestring. So we make those dollars go even tighter and longer 
than most of the other agencies can do. It is also because we 
pay less, and our operations are much lower.
    The faith-based programs themselves are working. The major 
thing for me was this young man, when I came into the program, 
he was working for a ministry, and the fact was he asked me 
what my preferences were, if I had any leaning, you know, 
towards the fact that--and, seeing that I was suicidal in 
particular, wanting to make sure, is there a way for faith-
based programs to intervene.
    So he offered; he did not demand. That is one of the 
greatest things for us, coming into my office. It is not a 
practice that anyone has to participate in to receive services, 
nor to even hear about, but the major thing is they are there 
for the offering.
    But in particular programs such as Celebrate Recovery, in 
those it gives them that faith and be able to go through the 
recovery at the same time. I feel it is one of the greatest 
programs that ever was, that we have been able to have.
    Having to have--you know, being able to give the privilege 
of faith-based programs is greater than just giving them one 
side, and that is very important in our office.
    Mr. Davis. Anyone else?
    Mr. Bailey. Social work comes out of the faith-based 
community, and it is at its genesis. What we know is that 
especially within the Catholic, Protestant, Jewish faith, there 
has been a tradition around social justice, social action, and 
that there are many years of history of faith-based 
organizations.
    Many of these agencies utilize social workers and are very 
active in their communities. I would like to share with you one 
group, which is Coalition against Religious Discrimination, 
which is comprised of many long-standing faith-based groups who 
really are looking at ways of working together and including a 
variety of ways of thinking.
    When we talk about diversity, faith is one area, one of the 
key areas, of diversity and the ways in which people can be 
engaged in doing social work, professional social work, but 
also be connected to faith-based organizations, Lutheran 
Services, Catholic Charities, et cetera, wonderful examples of 
organizations that have done amazing work over the years.
    Mr. Bird. I would just like to just say, since the 
beginning of time, American Indian people have offered prayers 
for this land and for all things and the blessings we have. So 
this mind, body, spirit sort of recognition by everyone is 
welcome, and it is an important, critical aspect to all of us 
that we acknowledge the role of spirituality and people's 
religious sort of traditions, because, in fact, there is health 
and well-being in that.
    Mr. Davis. Thank you.
    One last question: High energy costs, what it is doing to 
your clients? Anybody? High energy costs, high cost of 
gasoline, high cost of heating in the winter, if somebody could 
just talk to that, and that will be my last question.
    Ms. Bergeron. I am sorry, I missed the first part of your 
question. I didn't get it all.
    Mr. Davis. I think I am out of time. I will come back 
around if the Chairman will give me that opportunity. I will 
hold my question for now.
    Chairwoman McCarthy. Ms. Shea-Porter.
    Ms. Shea-Porter. Thank you. I have had to hold myself back, 
want to jump on that side of the table and talk about this 
myself. Thank you so much for being here.
    First of all, I wanted to say that so often we get a phone 
call, and it will be, well, somebody has to do something about 
this, and social workers are the somebodies that do something 
about it. So I am very proud to identify myself with all of 
you, and thank you.
    You know, social workers find that little spark of faith 
and that little spark of hope in somebody when other people 
write them off, and it is our job. I will say that, miserably 
paid, I can remember getting a job that required a master's 
degree, which I have, and yet in a different department within 
this organization, high-school graduates were earning more. So 
obviously something else motivates people to work like that. It 
is a love of other people.
    Often, very often, it is also inspired by faith. I have 
been privileged to work in organizations that didn't have--they 
were government organizations, and also I started up a private 
nonprofit that was faith-based, and it was interfaith. And we 
only set one set of rules there, which was that you did not try 
to convert anybody, and you did not discuss that at all; that 
everybody who came came out of need, and we didn't try to, you 
know, position ourselves so that one had an advantage or tried 
to proselytize.
    So I think it works very well because we are driven by 
something, all of us, and whatever the reason is, when we come 
to the table to help each other, that can be a great motivator. 
Then, again, for some it is not. So I think you have to be very 
careful and respectful about that.
    What I wanted to ask all of you was if you had one item on 
your wish list that you wish people knew, or you wished that 
they would give, or they would know, what would it be, because 
each one of us has that one thing that we wish people would 
know. I would tell you what mine is; that if Americans really 
understood and policymakers really understood that if you 
provided housing, even if it were just a simple room somewhere, 
you could stabilize people so that they could get on with the 
rest of their business, but that need for housing is so 
essential in order to provide the stability to work on 
everything else. So I give you mine, showed my hand. Would you 
all like to take a stab at it?
    Mr. Bailey. Mine would be one part with a semicolon, 
divided into two pieces, if I may.
    Ms. Shea-Porter. That is a politician for you.
    Mr. Bailey. I have been called that.
    The first part would be that people have a sense of 
belonging to community, a place of belonging, that that place 
of connectedness, either to one other person or multiple other 
people, however they define that sense of connectedness, helps 
us to have a wholeness and a functionability.
    In that I would also like to have recognized and understand 
at the level of government, both Federal, State and local, the 
role that professional social work plays in helping to maintain 
healthy communities, that, indeed, people need support and help 
to be able to achieve health and wholeness, and that the social 
work profession is that.
    Ms. Shea-Porter. Thank you.
    Dr. Mama. I think my one wish would be education, but 
education and social work from a very early age. The schools 
that we place students in for social work internships, those 
that have a school-based youth program that includes school 
social workers as well as the usual case study team, have a 
better program in their schools for students, and you find that 
students make better progress when you have got social workers 
right in the school system, from elementary all the way up 
through high school. And so that will be mine.
    Ms. Shea-Porter. Thank you.
    Mr. Bird. Mine comes from the Southwest in that when you 
live in a region that is dependent, I mean, high desert, and 
you grow your own crops, and oftentimes one very important crop 
historically has been corn, or any other sort of vegetable or 
something that you rely on, well, one of the elements you have 
to have, metaphorically speaking in today's discussion, is 
rain. Without rain, you can't grow anything. So we need to be 
aware of the fact that in order to provide the kind of 
resources we are discussing today, you have got to have a 
little rain. Without a little rain, nothing grows.
    Ms. Shea-Porter. I think I got that, thanks.
    Ms. Bergeron. I think mine would be very creative 
approaches to health care. Right now in New Hampshire, we 
cannot get dental care for children on Medicaid because of the 
payment system and the fact that dentists can't afford to give 
dental care to Medicaid patients.
    So I think, while we have probably the best medical 
services in the world, we do not have universal access on any 
level. I mean, right now we have Helen's van in Portsmouth. 
That is a wonderful thing. It is very creative. It drives 
around to both the towns and the cities and the rural areas to 
try to encourage people to do preventive as well as treatment 
health care.
    Ms. Shea-Porter. Thank you. I think that is a good point.
    Madam Chairman, do you want me to finish the last two?
    Chairwoman McCarthy. Sure.
    Ms. Shea-Porter. Reverend Wells.
    Rev. Wells. I think I would like for all of us to have 
unconditional respect for one another and to see the value of 
human life, and that helping them is much greater than just 
helping.
    Ms. Shea-Porter. Thank you.
    Ms. Fuller.
    Ms. Fuller. I would like to see everyone with a liveable 
wage, where you didn't feel the struggle every day. So that is 
what I would like to see.
    Ms. Shea-Porter. Thank you. Thank you for the extra time. I 
told you they are great people. Thanks.
    Chairwoman McCarthy. Thank you.
    Mr. Bailey, and certainly Ms. Fuller, and to my colleague 
Mr. Yarmuth, maybe because I am a nurse, we always try to look 
at things holistically. When you were talking about cost 
analysis on how many young people you have helped, and how to 
put a cost analysis on your--basically saying we don't have 
enough research, I will tell that you when my son was seriously 
hurt and about 4 months into his rehabilitation, which is only 
really the beginning of that, because, of course, it lasted for 
years, the insurance companies basically turned around and said 
he wasn't going to get any better, and that they did not feel 
that it was worth spending the extra money so that he could 
learn how to feed himself.
    Now, I have taken care of a lot of stroke patients in my 
life, and I know that it was a lot of patience and perseverance 
on the patient and certainly the nurse on just trying to get 
that patient to feed himself if that was the only thing they 
could do. It changed their life tremendously.
    So I don't know how you could put a cost analysis on 
something, and I mean this with all my heart and soul, because 
I have tried to go to CBO and say, give me a cost analysis if 
we do prevention. They say, we can't give you a cost analysis 
because we don't know. But people know, because you see the 
results.
    I know that we have to do that, because we are the Federal 
Government, and we need to certainly watch the taxpayers' 
money, and I believe in that. But I also know that when you are 
dealing with human life, and you are dealing with the family, 
which all of you are doing, you say, I am sorry, you just don't 
quite fit into the criteria, and we can't give you any more 
help.
    When do you cut that off? I haven't found that spot yet and 
believe I am very conservative and very thrifty, but there are 
certain things that I think are worth putting a dollar towards 
to prevent.
    And going back earlier on early education, from the day I 
first got here, if we spent the money that we need to spend on 
early education, preeducation, we wouldn't have half the 
problems we see in society. What I never understood is even 
though those young children that we help, for some reason, we 
stop giving those services in junior high. Now, I am old enough 
to realize what junior high was like even back then. Let me 
tell you, a lot of people got into a lot of trouble. Of course, 
I didn't, I was very good.
    But with that being said, I mean, how much information do 
we need?
    But I guess the one thing I will say to you for many years 
as a nurse, our pay was really, really bad. And the only 
difference is most of us worked in a nursing home or hospital, 
so they would set salaries. I know that all social workers that 
I deal with in my different communities, they are getting paid 
nothing, and I live on Long Island. They live on Long Island, 
and I don't know how to raise your pay, and I think especially 
with those that are nonprofit, they don't have the money. They 
are always scrambling for money. They will always scramble for 
money. There is not enough money that we could give them to 
take care of the problems they have.
    The only thing I am thinking, and I wish I had this hearing 
a long time ago, from my nurses and teachers, we actually are 
giving student loan forgiveness, mainly to help them this way: 
If they stay in the profession for 5 years, their loans would 
be forgiven. So, hopefully, that is something that we can look 
into help for those that are going into social work.
    Maybe it is not even too late, although I hear higher 
education is coming on Thursday. I don't know, I will work on 
it. With that, I just need to say that, because people don't 
understand what is going on until you have been affected by it.
    Unfortunately, the one thing I did want to say, because we 
are dealing with this in Financial Services, Reverend Wells, my 
committee came up to me and they said, well, we have a problem 
with the housing problem. We have this much money, even though 
it has been bumped up a little bit. We have two different 
groups that take care of people, terrific groups. One takes 
care of the most desperate, homeless people out there that 
don't have a house or anything over their roof. Then we have 
our families that might be living in a car, or they might be 
living with a second family, just so they get through it. They 
can't go to a shelter for exactly the same reason you said, 
because they have two teenage boys. The mother is not going to 
allow the two teen age boys go into the shelter without her 
being here.
    Here is the dilemma. Each group is trying to open up the 
wording. Those that are taking care of the homeless don't want 
the wording to be changed because that will take away their pot 
of funds. Obviously those with families, they want to open up 
the wording, because they want to take care of those families 
that they are taking care of.
    I feel like I am splitting the baby here. That, 
unfortunately, is what we deal with constantly here. I am 
hoping that through these hearings, people actually understand 
we are just trying to take care of each other.
    Mr. Davis.
    Mr. Davis. One last question, and I started down this road 
before.
    One of the biggest issues facing the American family right 
now is the high cost of fuel, gasoline. This winter we are 
going to go into a problem with not having enough supply, and 
energy costs are going to be high. Home-heating costs are going 
to be high. Tell me some stories if it is affecting the people 
that you care for and work with on a day-to-day basis. I open 
it up to anyone on the panel or everyone on the panel.
    Rev. Wells. Briefly I had a case that came to me, and it 
was two elderly ladies living together. They had been without 
power for 5 weeks. By that time it was $689 for me to get their 
power restored. Because our--there is--another vision of this 
is the deposits in order to have utilities. Our utility deposit 
is now $200. If their power is disconnected, then you have 
another deposit. And each time that it is disconnected, there 
is another deposit that is added on to that.
    So one of the things that I have to come up with is--to be 
able to pay for the utilities is including paying for their new 
deposits in order to get it turned back on; of course, then 
bringing in services that would help them--especially with 
these being elderly people, we were able to get several 
agencies that would come in and help undergird their situation 
so that they could stay in their home.
    But we are seeing utility bills, in particular right now, 
where most of the people can't even come in for gas in order to 
get food. We are actually having to go and deliver the food to 
the elderly. Our elderly are calling our offices on a daily 
basis and crying because they--just because they get Social 
Security, they get $10 worth of food stamps. You and I both 
know you can't buy much for $10. But they are wanting milk and 
eggs and bread, margarine, the simple things of life we look at 
and take for granted. This is what they call asking us. Then we 
have to take it to them, because there is no way for them to be 
able to have their gas to come in.
    We are also seeing the fact that our young men and women 
who are on Families First program and the struggle they are 
having with gas, with fuel, to be able to get to work. They are 
already working at minimum wage. So when we added these high 
costs now, they are not even able to afford to go to work. If 
they miss work, then they lose their jobs, so we are back to 
square one.
    You are going to be seeing much greater of this, and you 
are going to be hearing more stories like this, I truly believe 
this, over the next few months to come.
    Mr. Bailey. You are also going to see the impact and 
continue to see in food banks and other programs the increased 
cost of food that is given out to people who do not have enough 
food, that that cost is also being spread. In Boston, where I 
live, where we have a very, very successful food pantry, food 
bank program, they already are talking about the increased cost 
of having food. Also we are seeing a reduction in people giving 
food because they are needing to hold onto it for themselves.
    So we are going to face both challenges in terms of the 
cost, donations, as well as the rise in energy costs, enormous 
concerns now coming from Boston, which is heavily dependent in 
terms of old housing stock on oil heat. So the cost of oil for 
many older people, many families, will be for them the 
difference between eating, getting their oil. I just talked to 
someone the other day who says that she is trying to manage to 
keep a quarter of a tank if she can hold onto that and not go 
below that, but that is all she can afford to do. She is afraid 
because she knows the cost is going to go up even to just keep 
that quarter of a tank and how is she going to get through the 
winter.
    Mr. Bird. Also I think the case--I think it is very much 
the case for rural and reservation communities where people 
have to travel large distances to buy gas, to buy groceries and 
to just conduct their business. They are not--they can't rely 
on public--any sort of public transportation systems that urban 
areas have, so I think it is sort of a unique issue.
    Ms. Bergeron. Yes. I would agree with everything that has 
been said. And, in addition, you know, States like New 
Hampshire, we have such poor structure, public transportation, 
that you are not only talking about the cost of gas, they are 
talking about the cost of a vehicle, if you really wish to 
employ people and have them working in areas that may earn them 
money.
    Mr. Bailey. I would also add one other comment that very 
often people think about when they are thinking about older 
people, and they are saying, well, we are going to raise the 
bus fare, but you seniors get a discount. If you have ever 
worked with older adults who talk about what that difference of 
a dime or when something goes up a quarter when they are on 
fixed income, and the anxiety that that creates when it speaks 
to reducing their activities of daily living, that what for 
some of us seems minimal for other people is catastrophic.
    We really have to look at the context in the which these 
activities and changes occur. For some people something that 
appears very negligible, for someone else is a life-and-death 
catastrophic issue and has a catastrophic impact.
    Chairwoman McCarthy. Mr. Yarmuth.
    Mr. Yarmuth. Thank you, Madam Chairman.
    I want to follow up on something that you began, and this 
is the question of education and early childhood development. 
David Brooks had a fascinating column this morning in the New 
York Times, I hope everybody reads it, that talked about the 
real challenge to American revival as an economic power.
    He talked about--he made the statement in the column that 
boosting educational attainment at the bottom is more promising 
than trying to reorganize the global economy. His point was 
that what we have seen over the last 30-something years in this 
country is actually a decline in educational attainment, 
largely attributable to the fact that we have so many at-risk 
families where children, in their very early years, before they 
are 5 years old, are not developing the social skills, the 
confidence levels, the nurturing that many others do. Actually, 
because of this, this contributes to drop-out rates and so 
forth. We know we have a horrible problem with drop-out rates 
throughout the country.
    My question, after that long introduction, is what role do 
social workers have to play in trying to correct or--and I 
know, Reverend Wells, this sounds like something that was your 
personal situation--in trying to balance, if you will, the 
early childhood development of at-risk families? As a corollary 
question, is there anyone else who can do that?
    Rev. Wells. I think in particular for my situation and in 
growing up is that I was never encouraged to go to school 
because it was already cut out that--you know, that I was going 
to be a wife and a mother and nothing else. That was to be my 
role. That was something to be very proud of. That was--not to 
put that down, that was an important role for us to play.
    But I think the schoolteachers--and they are another one 
who steps in--the schoolteachers I had encouraged me and kept 
me going. At that time there was no such thing as social work 
in the field of education, but my schoolteachers kept me going 
and dreaming and desiring and believing in myself that there 
was something else that I could do.
    Now, being able to have social workers that specialize in 
the testing and development and being able to work with the 
children at risk are very important. Also the agencies that 
work with children, as we have at home, Coalition for Kids and 
Boys to Men, these are mentoring programs to keep the children 
going forward instead of stopping and giving up.
    We have such a hopelessness among our at-risk families 
because it is multigenerational, as we all know. You are 
fighting--I have them coming into my office, well, we filed for 
Social Security today. This is a thrill, this is an excitement, 
you know, we finally got to the point where we can file for 
Social Security on our own and be able to be supported by the 
government. They are not looking to see what can I do for my 
government in order to help support others.
    So it is the mentality all the way around, and that is why 
the social worker is so important, I believe, this day and 
time, is to be able to help them to keep dreaming and go 
forward.
    Ms. Bergeron. I think social work also will come up with 
some innovative programs. At the University of New Hampshire, 
social work, along with the other disciplines in the College of 
Health and Human Services, has started an early intervention 
assessment program that includes physical therapy, occupational 
therapy, psychosocial assessment, speech therapy, and 
developmental profiling. This is made free to anyone who, you 
know, can get there.
    We are still trying to fine-tune it, we are trying to 
broaden the scope of it. We partnered with Dartmouth College. 
It has been a wonderful program that has helped the schools. We 
provide consultation to schools in order to help them learn how 
to deal with the multitude of diagnoses that they are getting.
    Let me just insert here, we tend to talk about the needs of 
developmental disabled children, but we also need to think 
about--and I think social work is just beginning to get into 
this area--the gifted child that gets lost in the educational 
system, and we can't afford to lose those children.
    Mr. Bird. I would just like to mention that, you know, we 
have programs that have clearly demonstrated their 
effectiveness through research, and Head Start is clearly one 
of them. So we have models already in place.
    I think that we also, in the research, have a knowledge and 
understanding of what goes into creating or recognizing the 
resilience of children coming out of dire circumstances. We 
know what it takes to intervene.
    One of the critical pieces that has been mentioned today is 
the ability to create a positive relationship with someone or 
people over time, whether it be a grandparent, a teacher or 
other sort of people that are there for that child when they 
are in crisis or to provide support.
    The other thing I wanted to mention was that, getting back 
to your question, I think there has been some research about 
incarceration, and that there has been some research, and I am 
sure we can find that data or the study, that, as I recall, 
given what we are paying to incarcerate people per capita, that 
we could almost send them all to Ivy League schools.
    One of the realities and--personally speaking, one of the 
realities when I was growing up was the low expectation that 
people--some teachers, not everyone--and some people placed 
upon Indian students and expecting that they would not achieve, 
could not achieve, and were not capable of higher education, 
were not capable of having a dream, and that reality is still 
out there for many in this country, that there is a low 
expectation. They don't expect many of us to achieve. They 
don't expect us to be productive. They don't expect us to be 
president of the American Public Health Association. They don't 
expect those sorts of things. Consequently, that is what they 
get. They don't--and those children are marked, and their 
dreams end and are dashed, and we all lose out on a very 
valuable resource to this Nation.
    Chairwoman McCarthy. I want to thank everybody for the 
testimony that you have put forth, and certainly with your 
answers.
    Mr. Bird, it wasn't that many years ago that they said the 
same thing about Irish, the Polish, the German. So a lot of 
people kind of forget their ancestry.
    I know when I first came on this committee and started 
visiting schools on Mondays, and people will say our children 
can't learn. Our children can learn if we give them the 
opportunity, and that is proven. We already have the statistics 
on that.
    But with that being said, again, I thank you all for your 
information, anything that you feel that this committee should 
have, and the only thing I would ask you to think about, you 
know, is what can we in Congress do. Obviously, because you are 
so diversified, the pay scale is going to be totally different. 
Those for nonprofits are going to be there because that is 
where they want to be, and the pay, unfortunately, is going to 
be low. Those who are in Civil Service and other areas will 
have better pay. Those that are teaching, you know, you will be 
where salaries are going to be different. So you are all over 
the place, and I don't even know how to address that, to be 
very honest with you.
    I will try to do what I can do on student loan forgiveness. 
That is someplace where you can go. This way we can hopefully 
educate our young people to go into a field that they can 
actually help an awful lot of people.
    With that, I am not going to read my closing statement. I 
think we are all on the same page on what we want to do.
    As previously ordered, Members will have 14 days to submit 
additional materials to the hearing. Any Member who wishes to 
submit follow-up questions in writing to the witnesses should 
coordinate with the Majority staff within the requested time.
    [The statement of Mr. Altmire follows:]

Prepared Statement of Hon. Jason Altmire, a Representative in Congress 
                     From the State of Pennsylvania

    Thank you, Chairwoman McCarthy, for holding this important hearing 
on the state of social work in America.
    I look forward to learning more about the social work profession 
today from our esteemed panel of witnesses. Social work is one career 
that the Bureau of Labor Statistics estimates will grow faster than 
average. Some fields of social work are anticipated to grow by as much 
as 30 percent by 2016. Social workers perform a great service in our 
communities, providing our children, families and seniors with guidance 
and education.
    Social workers often face difficult and challenging work, and I 
appreciate all that they do to help members of our communities. I look 
forward to today's testimony and I would like to thank the witnesses 
for lending us their time today.
    Thank you again, Chairwoman McCarthy, for holding this hearing. I 
yield back the balance of my time.
                                 ______
                                 
    [Additional submissions for the record by Mrs. McCarthy 
follow:]

                    National Association of Social Workers,
                                   Washington, DC, August 14, 2008.
Hon. Carolyn McCarthy, Chairwoman,
Subcommittee on Healthy Families and Communities, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairwoman McCarthy: On behalf of the National Association of 
Social Workers (NASW), I would like to thank you for the important role 
you played in the Subcommittee hearing on July 29, ``Caring for the 
Vulnerable: The State of Social Work in America.'' Congressman Yarmuth 
had several questions regarding the cost effectiveness of social work 
interventions, and I would like to clarify a few points and provide 
some additional materials.
    Research has proven that social work is necessary to solve the 
seemingly intractable societal problems we are facing. For instance, 
professional social workers are more likely to find permanent homes for 
children who were in foster care for two or more years. Yet, fewer than 
40 percent of child welfare workers are professional social workers. 
Professional social workers not only have a positive impact on the over 
500,000 children in the U.S. foster care system but provide significant 
cost saving services. Child welfare agencies that hire social work 
staff also have lower turnover than those that do not. Likewise, the 
Child Welfare League of America determined that targeted case 
management ``enhances the child's condition and/or reduces the 
likelihood that more intensive, more expensive Medicaid covered 
services will be needed in the future.'' Social workers play an 
important role in social services and psychosocial care that leads to 
increased successful outcomes in a variety of fields.
    Studies of the cost effectiveness of social work are still a 
burgeoning area of research, yet Rizzo and Rowe note that, ``it 
provides convincing empirical evidence that social work services can 
have a positive and significant impact on quality of life and health 
care costs and use for aging individuals.'' Research has been done on 
the cost effectiveness and efficacy of social work practice with 
various populations, including caregivers of the elderly, elders 
receiving geriatric evaluation and management, those in poverty with 
individual development accounts, substance abusers, stroke patients, 
and aging individuals receiving social work services. Research on 
Social Work Practice published a full issue in 2006 dedicated to these 
issues, which we will deliver to you as soon as possible.
    Again, thank you for the important role you played in the July 29 
hearing and we look forward to working together to strengthen our 
families and communities.
            Sincerely,
                      Elizabeth J. Clark, Ph.D., ACSW, MPH,
                                                Executive Director.
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    [Additional submissions for the record by Ms. Shea-Porter 
follow:]

                          Clinical Social Work Association,
                                        Seattle, WA, July 28, 2008.
Hon. Carolyn McCarthy, Chairwoman,
Subcommittee on Healthy Families and Communities, U.S. House of 
        Representatives, Washington, DC.
    Dear Chairwoman McCarthy: Thank you so much for the opportunity to 
provide information to the Subcommittee on Healthy Families and 
Communities on the current state of social work in America. The 
Clinical Social Work Association is pleased to offer the clinical 
social work perspective on this important topic. Clinical social work, 
an important subspecialty of social work, is one of the major providers 
of mental health treatment for families, especially in assisting 
families with the care of children and the elderly. Licensed clinical 
social workers (LCSWs), called licensed independent clinical social 
workers (LICSWs) in some states, are the largest group of mental health 
professionals, providing services for mental health and chemical 
dependency disorders to all strata of society.
    There are approximately 175,000-200,000 licensed clinical social 
workers across the country (ASWB, 2007), by far the single largest 
group of mental health clinicians (SAMHSA, 2001). Licensed clinical 
social workers have at least a Master's degree plus 2-3 years of 
supervised post-graduate training or roughly the same clinical training 
and experience as psychologists. The concept of biopsychosocial 
assessment, so crucial to understanding and treating mental health and 
chemical dependency disorders, was also an outgrowth of basic clinical 
social work concepts (Simpson, G., Segall, A., and Williams, J., 
``Social Work Education and Clinical Learning,'' Clinical Social Work 
Journal, March, 2007.) The clinical social worker's scope of practice 
includes diagnosis of mental health and chemical dependency disorders 
and provision of clinical treatment for these disorders, popularly 
known as ``psychotherapy'', ``talk therapy'', or ``counseling''. In 
addition, clinical social workers assist with problems in social 
functioning within a ``person in environment''. (Karls, J. and Wandrei, 
K.,1994, Person-in-Environment System: The PIE Classification System 
for Social Functioning Problems, NASW Publishing.)
    According to a Consumer Reports survey of over 3000 participants 
who received help with emotional and chemical dependency disorders, 
``Talk therapy rivaled drug therapy in effectiveness. Respondents who 
said their therapy was `mostly talk' and lasted at least 13 sessions 
had better outcomes than those whose therapy was `mostly medication.' 
Therapy delivered by psychologists and clinical social workers was 
perceived as effective as that given by psychiatrists.'' (Consumer 
Reports, ``Drugs vs. Talk Therapy,'' October, 2004.)
    The CSWA membership can attest that LCSWs are providing talk 
therapy that works in a variety of modalities, i.e., to individuals, 
couples, families, in several different settings, i.e., offices, 
schools, hospitals, and skilled nursing facilities, among others. The 
capability and skills of clinical social workers to provide a wide 
array of services in a variety of settings is partly due to the 
training that all social workers receive in understanding internal and 
external systems. In rural areas, clinical social workers are often the 
only mental health providers available. Fortunately, most insurers, 
including Medicare and TriCare, accept LCSWs as reimbursable providers 
for mental health treatment.
    The most difficult areas of social work practice are those where 
abuse is reported, which often include the vulnerable populations of 
children, the elderly, and/or the disabled. Domestic violence and 
addictions also generally contain multi-faceted difficulties. These 
situations, which include harm to self or others, are the most complex 
and most challenging to resolve, both in terms of impaired social 
functioning and mental health disorders. Licensed clinical social 
workers could be a valuable resource in the biopsychosocial assessment 
and treatment of these situations, but often this work is being 
conducted by caseworkers who have little or no social work education 
and experience, even though they are frequently called social workers.
    Cases where abuse may be present should receive services from the 
most experienced well-trained licensed clinical social workers, in 
manageable caseloads, with a funding that is commensurate with the 
difficulty of this work, in the opinion of CSWA. Improving the 
standards of education and supervision for those who work with the 
abused and their families in public and private agencies, and 
specifically including clinical social workers in these jobs, would 
save lives, reduce harm, and cut down on anti-social behavior which can 
cause people to spiral into the corrections system.
    In addition to cases which include abuse, there are three areas of 
practice which require more biopsychosocial assessment and 
psychotherapy. These areas are working with the elderly, children, and 
active military personnel/veterans. The services clinical social 
workers can provide in these areas are as follows:
    <bullet> Working with the elderly involves understanding family 
dynamics and the impact of the aging process on individuals, their 
families, and their communities. Clinical social workers are trained to 
intervene effectively these areas.
    <bullet> CSWA has a strong concern about the kinds of services 
being offered to children and adolescents with emotional disturbance. 
There is an increasing emphasis on medication alone, not talk therapy, 
to control behavioral problems in children. Children and adolescents 
who learn to identify their feelings and put them into words, as well 
as to engage others to help them function more effectively, are more 
likely to become adults who are able to avoid behavior that is hurtful 
or harmful to themselves or others. LCSWs are the trained professionals 
who, in many cases, help children who have not been able to manage 
their feelings find better ways to manage them.
    <bullet> The problems faced by veterans themselves, including 
traumatic brain injuries, are the tip of the iceberg when it comes to 
addressing the myriad problems caused by the impact of deployment on 
the spouses, children, and other family members of those who have 
served their country in the military. The levels of domestic violence, 
emotional disturbance, and addiction disorders involving spouses, 
children and extended family of current or discharged members of the 
military are far above the national average (Center for the Study of 
Traumatic Stress, Overview for Practitioners, 2008, http://
www.centerforthestudyoftraumaticstress.org/downloads/
CSTS%20Helping%20Service%20Members%20for%20Providers.pdf). Licensed 
clinical social workers are qualified to provide the crucial services 
to treat these serious problems. As H.R. 5447 states, the need for 
clinical social workers to provide services in these critical areas is 
increasing, and there is an anticipated shortage of clinical social 
workers to serve these populations.
    In addition to these crucial areas, there hundreds of thousands of 
clinical social workers providing effective psychotherapy and improved 
social functioning to our citizens at all economic levels and in a 
variety of settings, a major part of our mental health and social 
service delivery system.
    CSWA is proud to help clarify the role of clinical social workers 
as the mental health professionals who treat problems in emotional and 
social functioning. We appreciate the efforts of the Subcommittee to 
understand the many ways that social workers contribute to our 
country's well-being and CSWA would be happy to assist your sub-
committee further.
            Sincerely,
                                     Kevin Host, President,
                                  Clinical Social Work Association.
                                 ______
                                 

            The NASW Code of Ethics and State Licensing Laws

             By Sherri Morgan, JD, MSW, NASW (c) June 2007

Development of the NASW Code of Ethics and Legal Regulations
    The first formal code of ethics adopted by social workers was 
published in 1947 by the American Association of Social Workers 
(Reamer, 2006). Almost fifteen years later, in 1960, the National 
Association of Social Workers published its first Code of Ethics. It 
has evolved and been revised several times since then, in 1979, 1996 
and 1999.
    During the 1960s only seven states had passed some form of 
credentialing statutes for social workers (Biggerstaff, 1995). This 
number doubled in the 1970s, increased in the 1980s, and by the early 
1990s some form of licensing, registration or certification for social 
workers was required in all states and the District of Columbia 
(Biggerstaff, 1995).
    As the profession of social work evolved and gained statutory 
recognition among the states, the NASW Code of Ethics was used as a 
primary source for national ethics standards. In states where there was 
no regulation, the NASW Code of Ethics set the standard for ethical 
social work practice. Thus, until the last decade of the 20th century, 
state licensing did not cover all of the states, and the NASW Code of 
Ethics filled a critical role, unmet by other forms of professional 
governance.
    As states developed rules of conduct for the discipline of social 
work licensees, they often relied on the standards of the NASW Code of 
Ethics as a guideline for acceptable professional behavior. NASW also 
promoted the creation of state social work licensing and regulation, 
publishing a model licensing law in 1970 (Models for licensing, 
registration, 1970). The relationship between professional association 
standards and the development of state-by-state regulation has 
necessarily been, and continues to be, an interactive one.
    As the federal government has increasingly played a role in 
standardizing the privacy and security of client treatment records, the 
Department of Health and Human Services (HHS) has acknowledged the 
unique role of professional ethics standards. In its preamble to the 
Health Insurance Portability and Accountability Act (HIPAA) privacy 
standards, HHS stated, ``We expect and encourage covered entities to 
exercise their judgment and professional ethics in using and disclosing 
health information, and to continue any current practices that provide 
privacy protections greater than those mandated in this regulation.'' 
(Standards for Privacy of Individually Identifiable Health Information, 
2000). Although the current HIPAA privacy standards defer to more 
stringent state laws regarding disclosure of confidential client 
information, the need for uniform national standards is emerging as a 
critical and controversial issue in the development of electronic 
medical information systems. Traditional standards for the protection 
of client information that are common to both the NASW Code of Ethics 
and social work licensing boards' codes of misconduct may be vulnerable 
to erosion from new data transfer standards.
Rationale for Incorporating the NASW Code of Ethics into State Law
    Current legal research indicates that almost half the states are 
relying on the NASW Code of Ethics for some portion of the state's 
regulation of the social work profession. The use of the NASW Code in 
state social work licensing laws or regulations serves a number of 
purposes. Reference to a national standard for professional conduct in 
state law or regulation provides a touchstone to enhance local and 
regional recognition of social work as a profession. Since social 
workers in a particular state may come from many locations and out-of-
state schools, incorporation of the NASW Code serves to reinforce the 
common underpinnings of professional social work values, education, and 
training, regardless of social workers' geographic backgrounds.
    The NASW Code of Ethics is the longest-standing and most 
consistently developed set of standards that have been part of the 
social work professional culture for longer than any state law. 
Inclusion of the NASW Code of Ethics creates a uniform standard for all 
social workers subject to the state standard. Thus, NASW members and 
social worker non-members are all on notice that they need to 
understand and comply with national standards and to consider how to 
integrate the high standards of the NASW Code with other state and 
workplace requirements.
    The NASW Code was developed by social workers for the social work 
profession with the interests of the public in mind. For states with 
composite or ``multi-disciplinary'' licensing boards, inclusion of the 
NASW Code of Ethics assists licensing board members to clarify the 
unique standards applied to social work licensees. Inclusion of the 
NASW Code in specific practice areas also assists in the recognition of 
social workers' unique role among other professionals, such as in the 
school setting, hospice or specialty clinics.
Social Work Licensing Boards' Treatment of the NASW Code of Ethics
    Twenty-two states explicitly incorporate the NASW Code of Ethics 
into some portion of state law. In most of these states the NASW Code 
is referenced, incorporated or adopted as part of the state social work 
disciplinary standards. However, there are other applications as well. 
Interestingly, South Dakota makes the greatest number of multiple uses 
of the NASW Code of Ethics among all the states. South Dakota includes 
the NASW Code in both statute and regulation and relies on two separate 
versions of the Code, uses it in the definition of practice, as a rule 
of conduct, and requires a statement of adherence to the Code's 
principles for licensees and supervisors.
    The NASW Code of Ethics in state social work law is used in several 
ways, including:
    <bullet> As part of the definition of social work practice
    <bullet> As a rule of conduct
    <bullet> As a curriculum requirement for social work students
    <bullet> As part of the continuing education requirement.
Clinical Social Work Definition
    Rhode Island includes adherence to ``the principles and values 
contained in the NASW Code of Ethics,'' as part of its definition of 
clinical social work practice, rather than as an explicit standard of 
misconduct. Thus, in that state only ethical practice falls within the 
scope of practice. Code R.I. R. Sec.  15 050 001. South Dakota has a 
similar provision, S.D. Codified Laws Ann. Sec.  36-26-45; however, it 
also includes the NASW Code of Ethics as a standard for evaluating 
misconduct, Sec.  36-26-32. Minnesota includes the NASW Code of Ethics 
standards in its definition of ``professional social work knowledge, 
skills, and values.'' Minn.Stat.Ann. Sec.  148D.010.
School Social Work Only
    California and Washington limit their application of the NASW Code 
of Ethics to school social workers. In California, the knowledge 
requirements for the specialization in School Social Work, include 
knowledge of the NASW Code of Ethics, and of the NASW Standards for 
Social Work Practice in the schools, and the joint policy statement of 
NASW and the National Education Association. It also includes the skill 
of applying the NASW Code of Ethics to school-site situations. Cal. 
Admin. Code tit. 5 Sec.  80632.3.
    The state of Washington requires school social work candidates to 
complete courses and/or receive experience where they will gain 
knowledge in relevant field of study including the NASW Code of Ethics 
and school social work guidelines for practice. Thus, the NASW Code of 
Ethics is used as a curriculum requirement, rather than as a standard 
for determining misconduct. Wash. Admin. Code 180-78A-270.
Hospital and Hospice Social Work Only
    The Connecticut Public Health Code, applicable to hospitals and 
hospice, requires a written social work service plan with policies that 
incorporate ``the current standards, guidelines, and code of ethics 
determined by the National Association of Social Workers.'' This 
provision helps to protect hospital and hospice social workers from 
ethical conflicts, as it provides leverage for social workers in those 
settings to advocate for ethical practice as a legal requirement. 
Public Health Code 2000, 19-13-D4b.
Composite Licensing Boards
    The Wyoming board includes several mental health professions and 
adopted by reference the ethics and professional standards of several 
different professional organizations. For three levels of social work 
licensees the NASW Code of Ethics is incorporated into the rules as an 
appendix as ``additional guidelines to ethical standards.'' Mental 
Health Profession Board, Rules, Ch. 11 (Professional Responsibility).
    Mississippi has incorporated the standards of both the NASW Code of 
Ethics and the American Association for Marriage and Family Therapy, 
and does not distinguish between the professions as to whether to 
adhere to both sets of standards and only the one applicable to the 
specific profession. C. Miss. R. Sec.  50 032 001.
    The New Hampshire board licenses five mental health professions and 
requires licensees to adhere only to that set of ethical principles 
adopted by their professional association. The specific associations 
are listed. N.H. Code Admin. R. Psy. 501.02 (1993).
    Ohio subscribes to both the code of ethics promulgated by NASW as 
well as the American Counseling Association, and does not distinguish 
that these shall apply to the professions separately, although a common 
sense interpretation would suggest that they should. Ohio Rev. Code 
Sec.  4757-5-01 (1997).
Separate Code of Conduct Established and Inclusion of the NASW Code
    Tennessee requires licensed social workers to conform to 
``professional standards promulgated by the board under its current 
statutes and rules and regulations,'' and adopts in its entirety the 
NASW Code of Ethics as well. Tenn. Comp. R. & Regs. 365-1-.13 
(Unethical Conduct). Ohio and Oklahoma are similar. Ohio specifies that 
if there is a conflict between the board's rules and that of the 
professional association, the board's rules shall prevail.
Judicial Application of the NASW Code of Ethics
    At least 30 reported cases in state and federal courts across the 
country refer to the NASW Code of Ethics. Some of these represent 
groundbreaking precedents, such as the creation of a federal 
psychotherapist-patient privilege by the U.S. Supreme Court in Jaffee 
v. Redmond, while others illustrate the common usage of the NASW Code 
in a variety of matters. These tend to fall within four broad 
categories:
    <bullet> appeals of social work board licensure or disciplinary 
decisions,
    <bullet> malpractice or personal injury complaints filed by former 
clients against the social worker, supervisor, or agency,
    <bullet> employment cases involving social workers, and
    <bullet> cases involving social work clients where the social 
worker is called as a witness or records custodian.
    Practicing social workers and social work educators should be aware 
of how the NASW Code has been interpreted and applied by the courts in 
the state where they are practicing. The summary of cases provided as 
an Appendix provides a resource for social workers seeking such 
information.
Conclusions and Implications for the Future
    The NASW Code of Ethics relies on principles and values as a basis 
for relationships between social workers and their clients and other 
professionals. It is broader, more universally accepted, and more well 
understood that the various social worker conduct codes among the fifty 
states. Almost half the states have relied on its provisions in some 
form for regulating social worker conduct. These uses of the NASW Code 
include definitions of social work practice, continuing education 
requirements, curriculum requirements, disciplinary standards, and 
affirmative statements of adherence to the Code as requirements for 
licensure.
    State and federal courts have relied on the standards of the NASW 
Code of Ethics regardless of whether they are sitting in a jurisdiction 
that has incorporated the NASW Code into state law. The extent to which 
courts find the NASW Code of Ethics to be a controlling authority 
varies. The collected opinions referencing the NASW Code of Ethics 
indicate that courts are sensitive to the contours of professional 
social work ethics, and generally display the ability to review the 
NASW Code of Ethics in an effective manner and apply it to a wide 
variety of cases.
    The incorporation of the NASW Code of Ethics as a disciplinary 
standard by state licensing boards raises important questions as to how 
the Code should be interpreted and by whom. The NASW Professional 
Review Process affords the opportunity for volunteer NASW leaders to 
interpret and apply the NASW Code of Ethics. As the organization that 
created the NASW Code, this is most appropriate. When used for 
Professional Review purposes, the NASW Code functions as a self-
policing set of principles and standards for the profession, to avoid 
harm to the public, and to provide social workers the opportunity to 
improve their practice and professional relationships.
    In states that have adopted the standards of the NASW Code of 
Ethics into state disciplinary laws, a finding by NASW of a violation 
of the NASW Code of Ethics, if reported to the state social work board, 
should trigger a review of the social worker's conduct by the state 
authority. More information as to the degree of concurrence by state 
boards with NASW Professional Review findings would be useful for 
future analysis.
    In other situations, state social work boards are in the position 
of interpreting and applying the NASW Code of Ethics without the 
benefit of a prior finding by NASW. In some instances, social work 
boards may have little guidance as to the accepted contours of the NASW 
Code, especially for non-social worker members of a board. The broad 
principles stated in the Code may seem too vague for a concise 
application to the matter at hand or conflicts between provisions of 
the Code may create a confusing array of alternatives. Some state 
boards address this by requiring expert social worker testimony as to 
the ethical standard of care.
    As Congress and the Executive agencies continue to carve out health 
privacy as the province of the federal government, rather than the 
states, conflicts with the NASW Code of Ethics are likely to increase. 
State boards can anticipate that state and federal legislatures and 
agencies will be involved in efforts to streamline the flow of health 
information and that these efforts may involve changes in traditional 
arenas of state regulatory power, in areas such as confidentiality and 
privilege for mental health records.
    In many ways, future applications of the NASW Code of Ethics could 
be guided by forces and authorities external to NASW. It is important 
to identify ways in which the principles of the NASW Code of Ethics 
will continue to influence those external processes in order to retain 
the core values of the profession.
                               references
Biggerstaff, Marilyn A. (1995). Licensing, regulation, and 
        certification. In R.L. Edwards (Ed.-in-Chief), Encyclopedia of 
        social work (19th ed., Vol. 2, p.1618). Washington, DC: NASW 
        Press.
Models for licensing, registration (May 1970). NASW NEWS (Vol. 14, No. 
        4). National Association of Social Workers.
Reamer, Frederic G. (2006). Ethical standards in social work 2. 
        Washington, DC: NASW Press.
Standards for privacy of individually identifiable health information 
        (2000). 65 Fed.Reg. 82462, *82680, 2000 WL 1875566 (to be 
        codified at 45 CFR Sec.  160 and 164).

     Appendix: Court Decisions Referencing the NASW Code of Ethics

    Readers should note that decisions listed as ``Not Reported'' do 
not have precedent-setting value in other cases. They are presented for 
purposes of illustration only.
Malpractice or Personal Injury Complaints
Carroll v. Casey Family Services, 32 Conn. L. Rptr. 297 (2002) 
        (unpublished opinion) (Connecticut).
Cosgrove v. Lawrence, 214 N.J.Super. 670, 520 A.2d 844 (1986), 
        affirmed, 215 N.J.Super. 561 (1987) (New Jersey).
Doe v. Samaritan Counseling Center, 791 P.2d 344 (1990) (Alaska).
Eckhardt v. Charter Hosp. of Albuquerque, Inc., 124 N.M. 549, 953 P.2d 
        722 (1997) (New Mexico).
Homer v. Long, 599 A.2d (1992) (Maryland).
Horak v. Biris, 474 N.E.2d 13 (1985) (Illinois).
Kara B. v. Dane County, Mikela R. v. Dane County, 542 N.W.2d 777 (1995) 
        (Wisconsin).
Martino v. Family Service Agency of Adams County, 445 N.E.2d 6 (1983) 
        (Illinois).
Roe v. Catholic Charities of the Diocese of Springfield, Illinois, 588 
        N.E.2d 354 (1992) (Illinois).
Social Worker as a Witness or Custodian of Records
In re: Grand Jury Subpoena, 748 A.2d 821 (2000) (Rhode Island).
Jaffee v. Redmond, 518 U.S. 1 (1996) (Illinois).
Kinsella v. Kinsella, 150 N.J. 276, 696 A.2d 556 (1997) (New Jersey).
People v. R.R., 12 Misc.3d 161 (2005) (New York).
Social Work Licensure Board Cases
Andrews v. Board of Social Worker Licensure, Not Reported in A.2d, 2005 
        WL 3338880 (2005) (Maine).
Connolly v. State, Not Reported in A.2d, 2003 WL 21387189 (2003) 
        (Maine).
Heinmiller v. Dep't of Health, 903 P.2d 433 (1996) (Washington).
Prinz v. State Counselor and Social Worker Bd., 2000 WL 43707, Ohio 
        App. 1 Dist. (2000) (Ohio).
Penny v. Wyoming Mental Health Professions Licensing Board, 120 P.3d 
        152 (2005) (Wyoming).
Zegel v. Board of Social Worker Licensure, 843 A.2d 18 (2004) (Maine).
Employment Law Cases
Birthisel v. Tri-Cities Health Services Corp., 424 S.E.2d 606 (1992) 
        (West Virginia).
Enright v. Special Adoption Family Services, Inc., 52 Mass.App.Ct. 
        1102, 750 N.E.2d 34 (Table) Mass.App.Ct. (2001) (unpublished 
        opinion) (Massachusetts).
Greenberg v. Kmetko, 922 F.2d 382 (1991) (Illinois).
Harnett v. Ulett, 466 F.2d 113 (1972) (Missouri).
Kelly v. City of Meriden, 120 F.Supp2d 191 (2000) (Connecticut).
Lown v. Salvation Army, Inc., 393 F.Supp.2d 223 (2005) (New York).
NASW's Professional Review Process
Quinones v. NASW, Not Reported in F.Supp.2d, 2000 WL 744146 (2000) (New 
        York).
Probate of a Will
Heinrich v. Silvernail, 500 N.E.2d 835 (1987) (Massachusetts).

    DISCLAIMER: The information contained in this document is provided 
as a service to members and the social work community for educational 
and information purposes only and does not constitute legal advice. We 
provide timely information, but we make no claims, promises or 
guarantees about the accuracy, completeness, or adequacy of the 
information contained in this message or linked to the NASW Web site 
and its associated sites. Transmission of the information is not 
intended to create, and receipt does not constitute, a lawyer-client 
relationship between NASW, LDF, or the author(s) and you. NASW members 
and online readers should not act based solely on the information 
provided by the LDF. Laws and court interpretations change frequently. 
Legal advice must be tailored to the specific facts and circumstances 
of a particular case. Nothing reported herein should be used as a 
substitute for the advice of competent counsel.
                                 ______
                                 
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


    Chairwoman McCarthy. Without objection, this hearing is 
adjourned.
    With that, I would like to say thank you to Mr. Davis for 
being here with us. We appreciate his inputs. I thank you 
again, each and every one of you.
    We are adjourned.
    [Whereupon, at 4:40 p.m., the subcommittee was adjourned.]

                                 <all>

</pre></body></html>
